                                     Participating Agencies

Department of Defense                                      U.S. Department of State and
Office of Inspector General                                Broadcasting Board of Governors
400 Army Navy Drive                                        Office of Inspector General
Arlington, VA 22202                                        Room 8100, SA-3
                                                           2201 C Street, NW
U.S. Army Audit Agency                                     Washington, DC 20520-0308
3101 Park Center Drive
Alexandria, VA 22302-1596                                  United States Agency for International Development
                                                           Office of Inspector General
Air Force Audit Agency                                     Room 8.09-090, RRB
1126 AF Pentagon                                           1300 Pennsylvania Avenue NW
Washington, DC 20330-1126                                  Washington, DC 20523

Naval Audit Service                                        Government Accountability Office
1006 Beatty Place, SE                                      441 G St., NW
Washington Navy Yard Bldg. 219                             Washington, DC 20548
Washington, DC 20374
                                                           Defense Contract Audit Agency
Special Inspector General for Iraq Reconstruction          8725 John J. Kingman Road, Suite 2135
400 Army Navy Drive                                        Fort Belvoir, VA 22060-6219
Arlington, VA 22202-4704

Special Inspector General for Afghanistan Reconstruction
400 Army Navy Drive
Arlington, VA 22202-4704




                                                                                                                   Fiscal Year 2011 Comprehensive Oversight Plan

                              Department of Defense Office of Inspector General
                                                                                                                      for Southwest Asia and Surrounding Areas

                                           400 Army Navy Drive
                                           Arlington, VA 22202

                                This report is available online at: www.dodig.mil
                                                                                                                Report No. SDIG-SWA-11-01               March 31, 2011
If you need additional information about each project, please contact the following agencies.

Department of Defense Office of Inspector General
703-604-9142
http://www.dodig.mil/

U.S. Army Audit Agency
(703) 681-8178 or (571) 521-9494
http://www.hqda.army.mil/aaaweb/default.htm

Air Force Audit Agency
(210) 536-5080 or (703) 696-7904
http://www.afaa.af.mil/

Naval Audit Service
(202) 433-5757
http://www.hq.navy.mil/NavalAudit/

Special Inspector General for Iraq Reconstruction
(703) 428-1058
http://www.sigir.mil

Special Inspector General for Afghanistan Reconstruction
(703) 602-3810
http://www.sigar.mil

Inspector General, Department of State
(202) 663-0378 or (202) 284-2668
http://www.oig.state.gov/

Inspector General, U.S. Agency for International Development
(202) 712-1020
http://www.usaid.gov/oig/

U.S. Government Accountability Office
(202) 512-8974
http://www.gao.gov

Defense Contract Audit Agency
(703) 767-2236
http://www.dcaa.mil




     For additional copies of this report, please see the inside back cover for details.
Foreword


                                 FOREWORD
The participating DoD and Federal oversight agencies are pleased to present the FY 2011
Comprehensive Oversight Plan for Southwest Asia.

The Southwest Asia Joint Planning Group facilitates the compilation and issuance of the
Comprehensive Oversight Plan for Southwest Asia (COPSWA) in response to the Public
Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,” January
28, 2008. This plan incorporates the planned and ongoing oversight of the Inspectors
General of the Department of Defense, Department of State, and the U.S. Agency for
International Development; the Special Inspectors General for Iraq Reconstruction and
Afghanistan Reconstruction; the Army Audit Agency; the Naval Audit Service; and the
Air Force Audit Agency. Additionally, the FY 2011 update includes the Government
Accountability Office ongoing oversight efforts related to Southwest Asia. We also
include information on the Defense Contract Audit Agency activities related to
Southwest Asia in Appendix B.

The FY 2011 edition is organized by primary oversight countries: Afghanistan, Iraq,
Pakistan, Kuwait, Qatar, and all other countries. Within each country, the COPSWA is
organized by subcategories under functional areas to articulate the commonalities of the
oversight community efforts, The COPSWA includes oversight projects that directly
impact efforts in Southwest Asia and surrounding areas. The projects may be conducted
exclusively in theater, require travel into theater, or be conducted outside the theater such
as solely in CONUS. More information about the functional areas and related
subcategories can be found in Appendix D.

REQUIRED OVERSIGHT. The Comprehensive Oversight Plan for Southwest Asia was
first issued in June 2008 (and each year since) in accordance with the requirements of
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
Section 842, “Investigation of Waste, Fraud, and Abuse in Wartime Contracts and
Contracting Processes in Iraq and Afghanistan,” January 28, 2008. Further information
on Section 842 can be found in Appendix D. In May 2009, we started to include
additional oversight requirements as directed in Public Law 110-417, “The National
Defense Authorization Act for Fiscal Year 2009,” Section 852, “Comprehensive Audit of
Spare Parts, Purchases, and Depot Overhaul and Maintenance of Equipment For
Operations in Iraq and Afghanistan” (see Appendix C). Further information on Section
852 can be found in Appendix D.




Foreword
                                              i
Foreword


EXPANSION OF THE OVERSIGHT PLAN TO INCLUDE ADDITIONAL AREAS SUPPORTING
THE U.S. MISSION IN SOUTHWEST ASIA. We expanded this oversight plan beyond the
statutory mandate to show all of the audit, inspection, and evaluation work (oversight) for
Iraq and Afghanistan, and the rest of the U.S. Central Command’s area of responsibility.
In addition to the audits of contracts, subcontracts, and task and delivery orders for
logistical support being conducted, this Comprehensive Plan addresses other oversight
areas, including asset accountability, financial management, security, human rights, rule
of law, and economical and social development.

Our agencies continue to work together through the Southwest Asia Joint Planning Group
to coordinate and provide effective oversight of the U.S.-led efforts in Southwest Asia.
We also continue to coordinate oversight plans through improved communications
among the members on a regular basis and on individual projects as they are proposed
throughout the year. We will update this plan in FY 2012.

On behalf of the contributing members:



                                Joseph T. McDermott 

                           Special Deputy Inspector General 

                                  for Southwest Asia 

                                          and

                                      Chairperson

                          Southwest Asia Joint Planning Group





Foreword
                                            ii
Table of Contents


Table of Contents 

Foreword........................................................................................................ i


FACTS AND FIGURES ......................................................................v 


PROJECTS BY COUNTRY
    AFGHANISTAN ........................................................................................... 1 

    IRAQ ........................................................................................................ 43

    PAKISTAN ................................................................................................ 69

    KUWAIT ................................................................................................... 77 

    QATAR ..................................................................................................... 83 

    ALL OTHER COUNTRIES ......................................................................... 89 



APPENDIX A. BREAKOUT OF FY 2011 ONGOING AND PLANNED OVERSIGHT 

            WITHIN FUNCTIONAL AREAS ................................................... 103 


APPENDIX B. DCAA CONTRACT AUDITS AND USAID OIG PLANNED 

            FINANCIAL AUDITS ................................................................... 104 


APPENDIX C. SECTION 852 PROJECTS ........................................................... 107 


APPENDIX D. SCOPE AND METHODOLOGY ................................................... 114





Table of Contents
                                                             iii
Table of Contents


Acronyms:

AAA                 Army Audit Agency
AFAA                Air Force Audit Agency
AFCEE               Air Force Center for Engineering and the Environment
AFCENT              United States Air Forces Central
ANSF                Afghan National Security Forces
CONUS               Continental United States
COPSWA              Comprehensive Oversight Plan for Southwest Asia
DCAA                Defense Contract Audit Agency
DoD IG              Department of Defense Inspector General
DoS OIG             Department of State Office of Inspector General
FY                  Fiscal Year
GAO                 Government Accountability Office
LOGCAP              Logistics Civil Augmentation Program
MC                  Multiple Countries
NATO                North Atlantic Treaty Organization
NAVAUDSVC           Naval Audit Service
NTMA/CSTC-A         North Atlantic Treaty Organization Training Mission -
                    Afghanistan/Combined Security Transition Command - Afghanistan
RC                  Regional Command
SIGAR               Special Inspector General for Afghanistan Reconstruction
SIGIR               Special Inspector General for Iraq Reconstruction
SWA                 Southwest Asia
TDY                 Temporary Duty
USAID OIG           United States Agency for International Development, Office of Inspector
                    General




Table of Contents
                                             iv
Facts and Figures



FACTS AND FIGURES


BREAKOUT OF FY 2011 ONGOING AND PLANNED OVERSIGHT IN SWA AND
SURROUNDING AREAS BY ORGANIZATION


 ORGANIZATION                               ONGOING PLANNED
 AAA                                            23         14
 AFAA                                           11          1
 DoD IG                                         49         25
 DoS OIG                                        15          6
 GAO                                            18          0
 NAVAUDSVC                                       4          8
 SIGAR                                          16         24
 SIGIR                                          13          2
 USAID OIG                                      18         32



BREAKDOWN OF FY 2011 OVERSIGHT IN SWA AND SURROUNDING AREAS BY
COUNTRY

                                       HOW MANY PROJECTS
COUNTRY
                                       IMPACT THE COUNTRY
Afghanistan                                      152
Iraq                                             82
Pakistan                                         19
Kuwait                                            18
Qatar                                            12
All Other Countries                               45




Facts and Figures
                                v
Afghanistan



AFGHANISTAN


 Accountability and Maintenance of Equipment
 ONGOING
 PROJECT                                               AGENCY   START    FINAL
 Night Vision Equipment Management (F2010-
 FD3000-0034). Objective: Determine whether
 Air Force personnel effectively manage night
 vision equipment. Specifically, determine
 whether Air Force personnel (a) accurately
                                                        AFAA    Mar-10   Feb-11
 determine night vision equipment requirements
 and correctly maintain associated authorizations
 to meet anticipated mission needs, and (b)
 properly account for on-hand night vision
 equipment assets. (MC)
 Small Arms and Light Weapons Management
 (F2010-FC4000-0028). Objective: Assess if
 property custodians properly manage small arms
 and light weapons. Specifically, assess if
                                                        AFAA    Jul-10   Jul-11
 custodians accurately account for items, promptly
 report on-hand discrepancies, adequately store
 and protect items, and appropriately deploy small
 arms and weapons. (MC)
 Aircraft Fuels Servicing Equipment (F2010-
 FC4000-0033). Objective: Determine whether
 aircraft fuels servicing equipment is effectively
 managed. Specifically, evaluate whether                AFAA    Aug-10   Aug-11
 personnel properly identify and support refueling
 truck and support equipment requirements, and
 accurately account for these items. (MC)
 Bulk Fuel Operations in Afghanistan (A-2011-
 ALL-0098.000). Objective: Did Class III bulk
 fuel points in Afghanistan have sufficient controls
                                                        AAA     Oct-10   May-11
 over storage and distribution operations to ensure
 the accurate accountability of fuel products and
 prevent the unauthorized diversion of fuel?
(MC) = project impacts Multiple Countries




Afghanistan
                                                1
Afghanistan



 PROJECT                                              AGENCY   START    FINAL
 Technical Order Management (F2011-
 FC2000-0025). Objective: Evaluate whether Air
 Force personnel effectively manage Technical
 Orders (TOs) and Time Compliance Technical
 Orders (TCTOs) in Southwest Asia. Specifically,       AFAA    Feb-11   Dec-11
 determine if personnel effectively distribute
 Technical Orders and TCTOs and properly
 implement support equipment and parts TCTOs.
 [TDY footprint in AOR Jun - Aug 2011] (MC)
(MC) = project impacts Multiple Countries

 Agriculture & Counternarcotics
 ONGOING
 PROJECT                                              AGENCY   START    FINAL
 U.S. and International donor programs to
 assist Afghanistan's agriculture sector.
 Objective: Conduct an overall assessment of U.S.
 and international programs to assist Afghanistan's
                                                      SIGAR    Oct-10   Jun-11
 agriculture sector. Identify the resources
 provided and assess the performance and
 sustainment of assistance programs to the
 agricultural sector.


 Anticorruption
 ONGOING
 PROJECT                                              AGENCY   START    FINAL
 Review of U.S. Assistance Program to the
 Major Crimes Task Force (MCTF). Objective:
 Identify U.S. and other donor assistance and         SIGAR    Aug-10   Mar-11
 determine the effectiveness of that assistance and
 accountability for that assistance.




Afghanistan
                                                2
Afghanistan



 PROJECT                                             AGENCY   START    FINAL
 Case Study Review of Provincial-Level Anti-
 Corruption and Accountability Efforts - 4
 USAID/State sub-national Programs Objective:
 Series of audits that will address funding,
 accountability, and capacity issues in select
 Afghan provinces. Case study audits of
 provincial level anti-corruption will lead to
 capping reports that will draw lessons learned
 across provinces (by RC). Work will identify the
 purpose, amounts, and sources of funding for
                                                     SIGAR    Nov-10   Jun-11
 specific province (donor and Afghan); assess
 steps taken by the U.S. Government to ensure that
 reconstruction funds provided by the United
 States are used only for intended purposes
 according to national and provincial priorities;
 and determine the extent to which the provincial
 government and line directorates are able to
 ensure that funds are properly protected from
 misuse, and used only for intended purposes
 according to national and provincial priorities.
 Review of Use and Accountability for US
 Funds to the Afghanistan Reconstruction
 Trust Fund. Objective: Assess the effectiveness
 and accountability for ARTF funds, totaling about   SIGAR    Nov-10   Apr-11
 $441 million provided by the United States and
 determine the extent to which these funds are
 used for intended purposes and priorities.


 Contract Management
 ONGOING
 PROJECT                                             AGENCY   START    FINAL
 Deployment of the Standard Procurement
 System in the Joint Contracting Command
 Iraq/Afghanistan (D2009-D000FB-0112.000).
 Objective: Determine whether the deployment of
 the Standard Procurement System to include the      DoD IG   Feb-09   Apr-11
 Standard Procurement System Contingency in the
 Joint Contracting Command Iraq/Afghanistan,
 was properly planned and executed. This is the
 second in the series. (MC)
(MC) = project impacts Multiple Countries



Afghanistan
                                              3
Afghanistan



 PROJECT                                              AGENCY   START    FINAL
 Quality Assurance Over Maintenance
 Contracts (F2010-FC2000-0021). Objective:
 Determine whether Air Force officials established
 adequate controls for managing selected
 maintenance contracts. Specifically, determine if     AFAA    Jan-10   Feb-11
 Air Force personnel (a) effectively monitored
 contract performance, (b) properly documented
 maintenance actions, and (c) accurately tracked
 aircraft flying hours.
 Requirements Determination and Validation
 Processes for LOGCAP IV in Afghanistan (A-
 2010-ALL-0421.000). Objective: Determine if
                                                       AAA     Mar-10   May-11
 the requirements determination and validation
 processes for the LOGCAP IV contract are in
 place and operating as intended.
 DOD Vetting in Afghanistan (351489) In an
 effort to build economic capacity in Afghanistan,
 the U.S. through DOD established a program to
 award contracts to Afghan firms. DOD also
 contracts with Pakistani firms to provide supplies
 needed in Afghanistan. There are currently over
 112,000 DOD contractors in Afghanistan
 supporting military operations. KEY
                                                       GAO     Apr-10
 QUESTIONS: Determine the extent (1) that DOD
 has developed and implemented a process to vet
 Afghan and Pakistani firms; (2) that information
 on Afghanistan and Pakistan firms is shared
 between DOD, State, USAID, NATO and the
 UN; and (3) that DOD has assurance that armed
 Afghan private security contractor personnel are
 screened. (DCM)
 Agreed-Upon Procedures Attestation for
 USFOR-A LOGCAP Course of Action (A-
 2010-ALL-0480.000). Objective: Determine if
 the corrective actions presented in the USFOR-A
                                                       AAA     May-10   May-11
 LOGCAP Course of Action Decision Brief were
 implemented and would provide assurance
 requirements were processed through the
 appropriate review board.
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
                                                      SIGAR    May-10   Apr-11
 sustainability of Air Force managed contract for
 construction projects in Herat and Mazar-E-Sharif


Afghanistan
                                               4
Afghanistan


 PROJECT                                              AGENCY    START    FINAL
 Private Security Contract Audit: Global
                                                      SIGAR     Jun-10   Apr-11
 Strategies Group.
 Focused Contract Audit: Review of
 performance, cost, agency oversight of USAID's
                                                      SIGAR     Jul-10   Apr-11
 cooperative agreement with CARE International
 for the FIRUP (cash for work) program.
 DoD Counter Narcoterrorism Technology
 Program Office's Other Direct Costs (D2011-
 D000AS-0004.000). This audit is one in a series
 of audits relating to the contracts supporting the
 DoD Counter Narcoterrorism Technology                DoD IG    Sep-10
 Program Office. Objective: Determine whether
 other direct costs are fair and reasonable in the
 task orders issued by the DoD Counter
 Narcoterrorism Technology Program Office.
 Micro-Purchases of Field Ordering Officers -
 Afghanistan (A-2011-ALL-0135.000).
 Objective: Determine whether procedures for
 micro purchases by field ordering officers had        AAA      Oct-10   Jul-11
 sufficient controls in place to ensure purchases
 were justified and items purchased were recorded
 on accountable records.
 MERO: Review of International Narcotics and
 Law Enforcement Affairs’ Major Crimes Task
 Force in Afghanistan (Contract Evaluation).
 Purpose: The primary objectives of this review
 are to determine: (1) the requirements and
 provisions of the contract; (2) if contract
                                                      DoS OIG   Nov-10   May-11
 performance measures have been established and
 are being achieved; (3) how well INL administers
 the contract to provide proper oversight of the
 contractor’s performance; and (4) whether the
 contractor is performing efficiently and
 effectively.
 DoD Oversight of the Northern Distribution
 Network (D2011-D000JA-0075.000).
 Objective: Assess DoD oversight of the Northern
 Distribution Network and evaluate the ability of     DoD IG    Nov-10   Aug-11
 DoD to plan, coordinate, and execute sustainment
 operations for Afghanistan through the Northern
 Distribution Network.




Afghanistan
                                                5
Afghanistan



 PROJECT                                                AGENCY   START    FINAL
 Follow-up of Health Care Provided by
 Military Treatment Facilities to Contractors in
 Southwest Asia (D2011-D000LF-0041.000).
 This follow-up audit is being performed at the
 request of the former Commander, U.S. Central
 Command. Objective: Determine whether DoD
 is taking adequate action in billing contractors for   DoD IG   Nov-10   Sep-11
 health care provided at military treatment
 facilities in Southwest Asia as identified in
 Department of Defense Office of Inspector
 General Report No. D-2009-078, "Health Care
 Provided by Military Treatment Facilities to
 Contractors in Southwest Asia."
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
                                                        SIGAR    Dec-10   May-11
 sustainability of Air Force managed contract for
 the Kabul Military Training Center.
 Procurement of High-Mobility Multipurpose
 Wheeled Vehicles and Troop Enclosures for
 the Afghan National Security Forces (D2011-
 D000AS-0133.000). Objective: Determine
                                                        DoD IG   Jan-11
 whether the program and contracting officials are
 effectively and efficiently procuring High-
 Mobility Multipurpose Wheeled Vehicles and
 troop enclosures.
 Pricing and Oversight of the Afghan National
 Army Air Corps Pilot and English Language
 Training Task Order (D2011-D000AS-
 0153.000). Objective: To determine whether the
 U.S. Army Program Executive Office for
 Simulation, Training, and Instrumentation
 obtained fair and reasonable prices for the goods
 and services on the Afghan National Army Air
                                                        DoD IG   Jan-11   Sep-11
 Corps Pilot and English Language Training task
 order and appropriately defined contractor
 surveillance and oversight processes and
 procedures for the task order. This audit is the
 second in a series of audits relating to the
 Warfighter Field Operations Customer Support
 (FOCUS) contract. The initial project is D2010-
 D000AS-0266.000
 FY2011 NDAA, Sec 1219, mandate to report on
 recommendations for contract oversight with            SIGAR    Feb-11   May-11
 emphasis on private security contractors.

Afghanistan
                                                 6
Afghanistan


 PROJECT                                            AGENCY    START    FINAL
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
                                                    SIGAR     May-11
 sustainability of AFCEE managed contracts for
 the construction of Afghan Defense University
 Review of the Attorney General’s Anti-
 Corruption Unit (JSSP) in Afghanistan
 Purpose: To provide an overall review and
 summary of the requirements and provisions of
 the Islamabad Embassy Security Force contract
 and to determine the amount of funding the
 Department has obligated and expended; how the
                                                    DoS OIG
 Department ensures that costs are properly
 allocated and supported; to what extent the
 Department’s anti-corruption mentoring and
 justice sector support program assistance has
 achieved its objectives and the impediments; and
 the effectiveness of Embassy Kabul in managing
 and overseeing the assistance program.

 Cross Cutting
 ONGOING
 PROJECT                                            AGENCY    START    FINAL
 Information Operations in Afghanistan
 (D2010-D000JA-0138.000) Objective: Evaluate
 the ability of U.S. Central Command and U.S.
 Forces-Afghanistan to conduct Information
                                                    DoD IG    Feb-10   Apr-11
 Operations in Afghanistan. Additionally, we will
 assess the support provided by DoD organizations
 that enable those commands to conduct
 Information Operations.




Afghanistan
                                              7
Afghanistan



 PROJECT                                               AGENCY   START    FINAL
 U.S. Civilian Surge in Afghanistan (320766).
 As the U.S. government seeks to build Afghan
 government institutions to stand on their own, an
 unprecedented expansion of the U.S. civilian
 presence in Afghanistan is underway. As billions
 of additional dollars and hundreds of new
 personnel flow into the country, it is important
 that U.S. agencies respond effectively to the U.S.
                                                        GAO     Apr-10
 government's staffing priorities as well as prepare
 their personnel for deployment in a conflict zone.
 Key Questions: (1) To what extent and through
 what processes are U.S. agencies prioritizing and
 fulfilling staffing requirements for the civilian
 surge in Afghanistan? (2) What steps have U.S.
 agencies taken to prepare their personnel for
 deployment? (IAT)
 Accountability for Afghanistan Direct Funding
 (320794). Since 2002, the United States has
 supported Afghanistan through specific lines of
 effort in security, governance, and development.
 U.S. agencies have paid for these efforts using
 direct funding, contributions to trust funds, and
 other means. The Administration has proposed to
 increase its use of direct funding. However, some
 members of Congress have concerns about the            GAO     Jul-10
 oversight and accountability of these funds. Key
 Questions (1) How has the United States provided
 funding for the lines of effort and how much has
 been provided? (2) What internal controls and
 oversight have U.S. agencies established for
 direct funding to support Afghanistan? (3)To
 what extent have U.S. agencies implemented the
 internal controls and oversight? (IAT)




Afghanistan
                                                8
Afghanistan



 PROJECT                                              AGENCY      START    FINAL
 Afghanistan Civilian Uplift (Joint w/SIGAR)
 The objective of this audit is to determine the
 costs of the Civilian Uplift in Afghanistan,
 including how much has been spent to date (2009
 to present) and an estimate of how much it will
                                                       DoS OIG    Oct-10
 cost to sustain the effort (present through 2012).
 Our work will focus on the costs associated with
 the hiring, training, deployment, and necessary
 life and operational support of civilian uplift
 personnel assigned to Afghanistan.
 Limited-scope Review of the Needs
 Assessments and Facilities Conditions for
 Newly Developed Department of State
 Positions in Afghanistan
 The primary objectives of this evaluation are to
 determine: 1) the degree to which the Department
                                                       DoS OIG    Dec-10
 conducted needs assessments to identify, develop,
 and staff new positions at Embassy Kabul and its
 constituent posts; and 2) whether available office
 facilities and housing or that already provided to
 staff filling these new positions are adequate,
 safe, and secure.


 Education & Healthcare
 ONGOING
 PROJECT                                              AGENCY      START    FINAL
 Audit of USAID/Afghanistan's Partnership
 for Community-Based Education in
 Afghanistan Program Objective: Did
                                                      USAID OIG   May-10   Oct-10
 USAID/Afghanistan's Partnership for
 Community-Based Education in Afghanistan
 achieve its main goals?
 Audit of USAID/Afghanistan's Support to the
 American University of Afghanistan Activity
 Objective: Did USAID/Afghanistan's Support to        USAID OIG   May-10   Nov-10
 the American University of Afghanistan Activity
 achieve its main goals?




Afghanistan
                                               9
Afghanistan



 PROJECT                                               AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Water,
 Agriculture, and Technology Transfer
 Program. Objective: Has USAID/Afghanistan’s           USAID OIG   Aug-10
 Afghanistan Water, Agriculture, and Technology
 Transfer Program achieved its main goals?

 Audit of USAID/Afghanistan’s Construction of
 Health and Education Facilities Program
 Objective: Is USAID/Afghanistan’s Construction        USAID OIG   Sep-10   Mar-11
 of Health and Education Facilities (CHEF)
 program achieving its main goals?
 Medical Aspects of Civilian Deployments
 (F2011-FD2000-0289). Objective: Determine
 whether the Air Force Medical Service (AFMS)
 effectively managed medical aspects of civilian
 deployments. Specifically, determine whether
 officials provided (a) appropriate pre- and post-
                                                         AFAA      Jan-11   Dec-11
 deployment screening for DoD civilians and
 contractors and (b) proper medical support to
 deployed civilians. Further, determine whether
 officials effectively deployed civilians to augment
 the AFMS expeditionary force. [TDY footprint
 in AOR Jun - Aug 2011] (MC)
 (MC) = project impacts Multiple Countries

 Equipment & Property
 ONGOING
 PROJECT                                               AGENCY      START    FINAL

 Requirements Development Process for
 Military Construction Projects in Afghanistan
 (D2011-D000JB-0068.000) Objective: Evaluate
 the requirements development process for
 military construction projects in Afghanistan.
                                                        DoD IG     Nov-10   Aug-11
 Specifically, we will determine whether the
 requirements development process results in
 statements of work that clearly define required
 results, have measurable outcomes, and meet
 DoD needs.




Afghanistan
                                                10
Afghanistan



 PROJECT                                             AGENCY   START    FINAL
 Supply Support Activities' Effectiveness in
 Sustaining U.S. Forces in Afghanistan (D2011-
 D000JO-0169.000). Objective: To determine
 whether selected Supply Support Activities in
 Afghanistan were effectively and efficiently
 supporting their customers. Specifically, we will   DoD IG   Feb-11   Oct-11
 evaluate whether the provided supply support was
 adequate in supporting unit readiness, and
 whether procedures for establishing authorized
 stockage lists were sufficient to ensure the most
 efficient use of funds.


 Funds Control
 ONGOING
 PROJECT                                             AGENCY   START    FINAL
 Controls Over Vendor Payments Phase II -
 Afghanistan (A-2010-ALL-0103.000).
 Objective: Determine if the Army has effective
                                                      AAA     Feb-10   Mar-11
 controls to ensure the accuracy of vendor
 payments for contingency operations in
 Southwest Asia (Afghanistan).
 Internal Control over Defense Finance and
 Accounting Service Overseas Contingency
 Operations (D2010-D000FR-0182.000).
 Objective: Determine whether the Defense
 Finance and Accounting Service (DFAS)
 established adequate controls to support the        DoD IG   Apr-10   Mar-11
 mission in Afghanistan so that contract payments
 and DFAS provided accounting services are
 accurate and timely. In addition, we will assess
 the adequacy of the current level of DFAS
 personnel assigned to the mission in Afghanistan.
 Review of the National Solidarity Program.
 Objective: examine extent and use of U.S. and
                                                     SIGAR    Apr-10   Mar-11
 other donor funds, and oversight and internal
 controls




Afghanistan
                                              11
Afghanistan



 PROJECT                                            AGENCY   START    FINAL
 Review of ANP Personnel Accounability
 Systems. Objective: assesses the ability of ANP
 personnel management processes and systems to      SIGAR    Jul-10   Mar-11
 account for (1) ANP payroll costs and
 reimbursement and (2) the ANP workforce.
 Review of Implementation and Sustainment of
 the Civilian Uplift (Joint audit with DOS
                                                    SIGAR    Oct-10   May-11
 OIG). Objective: Determine costs associated with
 the civilian uplift and its sustainment.
 Internal Controls Over Distribution and
 Reconciliation of Funds for the Afghanistan
 National Army Payroll (D2011-D000FR-
 0089.000). Objective: Determine if adequate
 controls are in place to ensure that the North
 Atlantic Treaty Organization Training Mission -
 Afghanistan/Combined Security Transition
 Command - Afghanistan (NTM-A/CSTC-A) is
                                                    DoD IG   Nov-10   Oct-11
 distributing DoD funds accurately and timely to
 the Afghanistan Ministries for the Afghanistan
 National Army payroll. In addition, we will
 determine whether NTM-A/CSTC-A has
 implemented an adequate mentoring process to
 assist Afghanistan Ministries in providing
 accurate payments to its National Army
 personnel.




Afghanistan
                                             12
Afghanistan



 PROJECT                                                AGENCY    START    FINAL
 Afghan National Police Training Program
 (D2011-D000JA-0009.000) [DOS 11AUD3001].
 The DoD IG and the Department of State
 Inspector General are performing this joint audit
 to meet an anticipated requirement in the
 FY 2011 National Defense Authorization Act that
 will require the DoD IG, in consultation with the
 Inspector General of the Department of State, to
 issue a report on the Afghan National Police
 Training Program. Objective: Evaluate the DoD
 and DOS efforts to transfer contract
 administration for the Afghan National Police
                                                        DoD IG    Jan-11
 Program. Specifically, we will assess the cost,
 performance measures, and planning efforts
 associated with the transfer to ensure enhanced
 contract oversight, adequate funding and support,
 and effective program management. We also
 plan to follow-up on the joint DOD IG
 Report No. D-2010-042 and DOSIG Report No.
 MERO-A-I O-6, "Department of Defense
 Obligations and Expenditures of Funds Provided
 to the Department of State for the Training and
 Mentoring of the Afghan National Police,"
 February 9, 2010.
 AUDIT: Review of the Afghanistan National
 Police Training and Mentoring Program (Joint
 w/DODIG) (Financial Review Audit). Purpose:
 To provide an overall review and summary of the
 requirements, provisions, and costs of the
 Afghanistan National Police Training and
 Mentoring Program contract; objectives of the
 contracts and task orders, what indicators have        DoS OIG   Jan-11
 been established to measure performance; and
 how the State Department administered the
 contract to oversee DynCorp’s performance and
 costs of the contract. Assess the status of contract
 records, management controls, costs, and value of
 this contract to the mission of the US
 Departments of State and Defense.




Afghanistan
                                                 13
Afghanistan



 Government Capacity Building
 ONGOING
 PROJECT                                                AGENCY      START    FINAL
 Review of the Ministerial Assessment Process
 in Afghanistan Objective: Do the ministerial
 assessments that USAID/Afghanistan is
 performing or participating in provide reasonable      USAID OIG   Aug-10
 assurance of identifying significant vulnerabilities
 that could result in waste or misuse of U.S.
 Government resources?
 Review of U.S. and international donor
 programs to develop the Afghan banking
 sector. Objective: Assessment of U.S. and donor
                                                         SIGAR      Oct-10   Apr-11
 assistance programs to develop the Afghan
 banking sector, including U.S. programs to build
 an effective Afghan currency control regime
 Afghan Capacity Building to Manage Budget
 and Finances (320815) Afghanistan's
 cumulative budget shortfall is projected to exceed
 $22 billion by 2013, with the international
 community expected to fund the shortfall. In July
 2010, the Afghan government stated that it
 needed to strengthen its management and
 oversight of public finances to ensure it could
 manage its budget and donor funds. (1) What is
 Afghanistan's national budget (revenues,                 GAO       Nov-10
 expenditures) and budgetary shortfall? (2) What
 are the U.S. efforts to build Afghan capacity to
 manage and oversee the budget and build a sound
 financial management system; to what extent are
 the efforts aligned with Afghan and international
 community goals? (3) To what extent have U.S.
 efforts improved the Afghan government's
 capacity to manage and oversee its budget and
 develop a sound financial management system?
 Facilities Management Training Provided
 Under the National Operations and
 Maintenance Contracts in Afghanistan
 (D2011-D000JO-0137.000) Objective:
 Determine whether the vocational training               DoD IG     Jan-11   Oct-11
 provided under the National Operations and
 Maintenance contracts is effective in developing
 the infrastructure maintenance capabilities of the
 Afghanistan National Security Forces.


Afghanistan
                                                 14
Afghanistan


 Infrastructure
 ONGOING
 PROJECT                                                AGENCY      START    FINAL
 Financial Audit of Black & Veatch - AIRP
 U.S. costs, Contract No. 306-I-00-06-00517-00,
                                                        USAID OIG   Jun-10   Apr-11
 August 25, 2006 - September 30, 2008 – Period
 1 Audit
 Financial Audit of Louis Berger Group Inc. -
 AIRP U.S. costs, Contract No. 306-I-00-06-
                                                        USAID OIG   Jun-10   Jun-11
 00517-00, August 25, 2006 - September 30,
 2008 – Period 1 Audit
 United States Air Forces Central (AFCENT)
 Area Of Responsibility Construction Planning
 (F2011-FD1000-0078). Objective: Determine
 whether AFCENT Civil Engineers coordinate
 MILCON projects with the proper command at
 joint bases to facilitate the Base Master Plan.
 Specifically, determine whether Air Force
 personnel (a) identified the proper command,             AFAA      Oct-10   Mar-11
 agency, or joint structure to oversee the joint base
 master planning effort, (b) identified and
 analyzed barriers to proper and adequate master
 planning, and (c) recommend the optimal
 alignment of responsibility and authority for the
 joint base operating support integrator (BOS-I)
 command structure. (MC)
 United States Air Forces Central (AFCENT)
 AOR Utilities (F2011-FD1000-0077). Objective:
 Determine whether AFCENT Civil Engineers
 effectively and efficiently manage utilities at
                                                          AFAA      Nov-10   Jan-12
 AFCENT AOR locations. Specifically,
 determine if civil engineers provide adequate,
 safe, and cost-effective utility service. [TDY
 footprint in AOR Jun-Aug 2011] (MC)
 Financial Audit of Technologists Inc., Task
 Order No. 306-0-00-04-00539-00, May 24, 2004           USAID OIG            Dec-10
 – Dec 31, 2007
 (MC) = project impacts Multiple Countries




Afghanistan
                                                 15
Afghanistan



 Physical Security & Personnel Security
 ONGOING
 PROJECT                                            AGENCY   START    FINAL
 Implementation of Security Provisions of a
 U.S. Army Intelligence and Security
 Command Contract for Linguist Support
 (D2010-D000JA-0165.001). Objective:
 Determine whether the security provisions of a     DoD IG   Jun-10   Jun-11
 U.S. Army Intelligence and Security Command
 contract for linguist support in Afghanistan
 (W911W4-07-D-0010) were implemented
 effectively.
 U. S. Air Forces Central (AFCENT) Deployed
 Locations Computer Network Controls
 (F2010-FB4000-0614). Objective: Determine
 whether AFCENT personnel effectively
 controlled access to the networks in the AFCENT
 Area of Responsibility. Specifically, determine
                                                     AFAA    Jul-10   May-11
 whether AFCENT personnel properly (a) identify
 contractors and foreign nationals with access to
 AFCENT networks, (b) authorize network access
 for contractors and foreign nationals, and (c)
 establish network user accounts for contractors
 and foreign nationals. (MC)
 (MC) = project impacts Multiple Countries




Afghanistan
                                             16
Afghanistan



 Reconstruction
 ONGOING
 PROJECT                                                AGENCY   START    FINAL
 Construction of the Detention Facility in
 Parwan, Afghanistan (D2010-D000JO-
 0229.000). Objective: Determine whether the
 U.S. Army Corps of Engineers and U.S. Forces -
 Afghanistan procured construction services and
 administered the construction contract for the
 Detention Facility in Parwan, Afghanistan in
 accordance with the Federal Acquisition
 Regulation and other applicable laws and               DoD IG   Jun-10   Mar-11
 regulations. Specifically, we will determine
 whether the U.S. Army Corps of Engineers
 properly monitored contractor performance
 during construction of the Detention Facility in
 Parwan, and whether the U.S. Army Corps of
 Engineers has taken or should take recourse
 against the contractor because of potential latent
 defects, negligence, or fraud.
 DOD Task Force on Business (351525) The
 Task Force for Business and Stability Operations
 (TFBSO) mission is to reduce violence, enhance
 stability, and restore economic normalcy in areas
 where unrest and insurgency have created an
 environment of economic hardship and violence.
 Key Questions: To what extent: (1) has the
 mission of the Task Force changed since 2006
 and has DOD developed plans to institutionalize
                                                         GAO     Aug-10
 the Task Force's mission and expand its scope to
 other countries; (2) has DOD evaluated the Task
 Force's activities, including establishing goals and
 metrics to measure outcomes; (3) does the Task
 Force coordinate its activities with other
 programs; (4) are the task force's activities
 similar or dissimilar to other programs and do
 opportunities exist to achieve greater efficiencies
 among programs. (DCM)




Afghanistan
                                                 17
Afghanistan



 PROJECT                                               AGENCY    START    FINAL
 Controls Over the Reporting and Propriety of
 Commander's Emergency Response Program
 Payments in Afghanistan (D2010-D000FL-
 0276.000). Objective: Determine whether the
 internal controls over the Commander's
 Emergency Response Program payments made to
 support operations in Afghanistan are adequate.
 Specifically, we will review the controls to ensure
 payments are proper and that complete, accurate,      DoD IG    Sep-10   Jun-11
 and meaningful data is reported to those decision-
 makers responsible for managing the
 Commander's Emergency Response Program.
 This audit is the second in a series of audits that
 addresses the internal controls over the
 Commander's Emergency Response Program
 payments made to support operations in
 Afghanistan.


 Refugee Assistance
 ONGOING
 PROJECT                                               AGENCY    START    FINAL
 Review of Afghanistan Refugee and Internally
 Displaced Persons. Purpose: To determine
 whether (1) U.S. government and international
 organizations have effectively met the protection,
 food, and other assistance needs of Afghanistan’s     DoS OIG   Aug-10   Apr-11
 refugee populations, and (2) whether the U.S.
 government has a coordinated and effectively
 managed program to protect and assist these
 refugees.




Afghanistan
                                                18
Afghanistan



 Services
 ONGOING
 PROJECT                                            AGENCY   START    FINAL
 Contract Administration of the Prime Vendor
 Program for Subsistence in Support of
 Operation Enduring Freedom (D2009-
 D000LD-0126.000). Objective: Evaluate the
 contract administration of the Prime Vendor
 Program for Subsistence in support of Operation    DoD IG   Feb-09   Feb-11
 Enduring Freedom. Specifically, we will review
 whether the assignment of Contracting Officer
 Representatives and execution of the quality
 assurance surveillance plans and procedures were
 effective for assessing contractor performance.
 Accountability Review of Defense Base Act
 Insurance Program in Afghanistan for certain
 DOD reconstruction contractors Objective:
                                                    SIGAR    Aug-10   Jun-11
 Identify the administration of DBA insurance
 programs in Afghanistan for reconstruction
 contracts funded by these three agencies.


 Training & Equipping National Security Forces
 ONGOING
 PROJECT                                            AGENCY   START    FINAL
 U.S. and Coalition Efforts to Train, Equip and
 Mentor the Afghan National Police (D2010-
 D00SPO-0198.000). Objectives: Determine
 whether U.S. government, Coalition, and Afghan
                                                    DoD IG   Apr-09   Mar-11
 Ministry of Interior plans and guidance to
 develop the Afghan National Police (ANP) are
 issued and operative, and achieving the stated
 goals and objectives.




Afghanistan
                                             19
Afghanistan



 PROJECT                                                 AGENCY   START    FINAL
 Management and Oversight for DoD
 Acquisition and Support of Non-Standard
 Rotary Wing Aircraft (D2011-D000AS-
 0030.000). Objective: Determine whether DoD
 officials properly and effectively managed the
 acquisition and support of Non-Standard Rotary          DoD IG   Oct-10   Jul-11
 Wing Aircraft, such as the Russian Mi-17 aircraft,
 to include those acquired using the Afghanistan
 Security Forces Fund or any DoD-related
 requirements. Multiple projects may be initiated
 under this objective.
 US Efforts to Establish an Effective Medical
 Logistics System (D2011-D00SPO-0092.000).
 Objective: Assess U.S. Government efforts to
                                                         DoD IG   Nov-10   Mar-11
 establish an effective medical logistics system
 within the Afghan National Security Forces,
 Ministry of Defense and Ministry of Interior.
 U.S. and Coalition Efforts to Develop the
 Logistics Sustainment Capability of the
 Afghan National Army (D2011-D00SPO-
 0172.000). Objectives: The DoD OIG will
 determine whether plans, training, preparations,
 and designated missions of ISAF/USFOR-A,
 NTM-A/CSTC-A, and IJC to train, advise, and
 assist in the development of an enduring logistics
 sustainability capability for the Afghan National
 Army (ANA) are synchronized with in-country             DoD IG   Feb-11   Sep-11
 plans and operational assumptions and needs. In
 addition, DoD OIG will determine whether the
 planning and operational implementation by
 U.S./Coalition forces to train, advise, and assist in
 the development of an enduring logistics
 sustainability capability for the ANA are effective
 by evaluating output/outcome in MoI/ANA
 logistics processes, logistical and operational
 organizations.




Afghanistan
                                                 20
Afghanistan



 PROJECT                                                AGENCY   START    FINAL
 Accountability of ANSF Vehicles. Objective:
 Overall, we will examine the U.S. program for
 providing vehicles for the ANSF. Specifically,
 we will determine (1) the ANSF’s vehicle
 requirements and the extent to which they have
 been met, (2) whether CSTC-A and ANSF can
                                                        SIGAR    Nov-10   Aug-11
 fully account for vehicles purchased with U.S.
 funds for the ANSF, including the number, type,
 and operational status; and (3) how CSTC-A
 ensures that ANSF can properly safeguard,
 account for, operate, and maintain vehicles
 purchased with U.S. funds.

 Warfare Support
 ONGOING
 PROJECT                                                AGENCY   START    FINAL
 Force Protection Programs for U.S. Forces in
 Afghanistan (D2010-D000JA-0091.000).
 Objective: Review the force protection programs
 for primary gathering facilities and billeting areas
 of U.S. forces in Afghanistan. Specifically, we
 will assess the program support and resources that     DoD IG   Dec-09   May-11
 commanders have for facility planning,
 antiterrorism, and safety programs protecting
 their forces. The audit will focus on Bagram
 Airfield, Kandahar Airfield, Camp Eggers, and
 the New Kabul Compound.




Afghanistan
                                                 21
Afghanistan



 PROJECT                                               AGENCY     START    FINAL
 DoD Countermine and Improvised Explosive
 Device Defeat Systems Contracts Interrogation
 Arm (D2010-D000AE-0139.000). This project is
 one in a series of reviews to address whether DoD
 procurement efforts for countermine and
 improvised explosive device defeat systems used
 in Iraq and Afghanistan were developed,
 awarded, and managed in accordance with
 Federal and Defense acquisition regulations.           DoD IG    Jan-10   May-11
 Objective: For this specific project, determine
 whether the Joint Improvised Explosive Device
 Defeat Organization (JIEDDO) and Army
 procurement efforts for the Interrogation Arm
 used on Husky and RG-31 vehicles in Iraq and
 Afghanistan were developed, contracted, and
 managed in accordance with Federal and Defense
 acquisition regulations. (MC)
 Marine Corps Individual Augmentee
 Integration Process (N2010-NFO000-
 0124.000). Objective: To verify that Marine
 Corps Individual Augmentees (IAs) are receiving      NAVAUDSVC   Feb-10   Apr-11
 the support needed throughout the deployment
 cycle to reintegrate with family, community, and
 employers. (MC)
 Afghanistan ISR Capabilities (351463) -
 Intelligence, surveillance, and reconnaissance
 (ISR) assets have demonstrated significant value
 to military commanders in both Iraq and
 Afghanistan. As military operations shift focus to
 Afghanistan, ISR assets are expected to be
 particularly useful in a multiple of capacities,
 including on-going counter-improvised
 explosives device (IED) operations. Key                 GAO      Feb-10
 Questions: (1) To what extent has DOD
 incorporated ISR capabilities and identified ISR
 shortfalls for military operations in Afghanistan
 into its planning efforts? (2) To what extent has
 DOD incorporated lessons learned for ongoing
 military operations, such as counter-IED
 operations, into operational planning for using
 ISR capabilities in Afghanistan? (DCM)
(MC) = project impacts Multiple Countries



Afghanistan
                                               22
Afghanistan



 PROJECT                                               AGENCY   START    FINAL
 U.S. Forces-Afghanistan Sharing of Tactical
 Counterintelligence and HUMINT with
 International Security Assistance Force
 (D2010-DINT01-0173.000). Objective: Assess
                                                       DoD IG   Mar-10   Mar-11
 the effectiveness of DoD sharing of tactical, force
 protection Human Intelligence and
 Counterintelligence information with
 International Security Assistance Force.
 Afghanistan Logistics Support (351492). - By
 August 31, 2010, DOD plans to have about
 10,000 troops in Afghanistan. Because of its
 austere conditions and other unique challenges,
 some of which GAO has identified previously,
 supporting operations in Afghanistan will likely
 continue to be very difficult. Key Questions: (1)
 To what extent has DOD provided the personnel,
 equipment, and supplies needed to support
 operations in Afghanistan in accordance with           GAO     Mar-10
 DOD’s established plans and timelines? (2) What
 factors, if any, have impacted DOD’s ability to
 provide the personnel, equipment, and supplies
 needed to support operations in Afghanistan, and
 how has DOD addressed these factors? (3) To
 what extent has DOD established a clear chain of
 command for the transportation of personnel,
 supplies, and equipment into and around
 Afghanistan? (DCM)




Afghanistan
                                                23
Afghanistan



 PROJECT                                               AGENCY     START    FINAL
 Army Advise and Assist Brigades (351514) The
 Army is augmenting certain brigade combat
 teams with additional leaders to advise and assist
 Iraqi and Afghan security forces. Previously, the
 Army had created teams of individual leaders,
 operating separately from brigade combat teams,
 for this mission. Key Questions: (1) The extent
 to which Army has defined the roles and missions
 of augmented brigade combat teams; (2) The
                                                         GAO      Jun-10
 extent to which Army has defined the training
 and resourcing requirements for augmented
 brigade combat teams, and the extent to which the
 Army and DOD have assessed their use for
 security force assistance; and (3) The extent to
 which Army has been able to fill the requirements
 for augmented brigade combat teams and what
 impacts, if any, this is having on reported Army
 readiness. (DCM)
 Post-Deployment Health Reassessment
 Program Management (N2010-NFO000-
 0040.000). Objective: To verify that the Navy is
                                                      NAVAUDSVC   Jul-10   May-11
 effectively implementing and managing the Post-
 Deployment Health Reassessment Program.
 (MC)
 Review of the Stability Operations
 Information Centers in Afghanistan (D2011-
 DINT01-0123.000). Objective: Determine
 whether the Stability Operations Information
                                                        DoD IG    Dec-10   Sep-11
 Centers (SOIC) have improved the intelligence
 provided to senior U.S. leaders and commanders
 on the political, economic, and cultural
 environment of Afghanistan.
 (MC) = project impacts Multiple Countries




Afghanistan
                                               24
Afghanistan



 Accountability and Maintenance of Equipment
 PLANNED
 PROJECT                                                AGENCY      START    FINAL
 Property Accountability in Afghanistan (A-
 2011-ALL-0344.000). Objectives: (1) Determine
 if command has sufficient policies, processes, and
 procedures to account for sensitive item
 shipments from Afghanistan to CONUS. (2)
 Determine if command has sufficient policies,
                                                          AAA       Mar-11   Dec-11
 processes and procedures to ensure visibility and
 transfer of property during relief in place transfer
 of authority (RIP/TOA). (3) Determine if
 command has sufficient policies, processes and
 procedures for the use of Financial Liability
 Investigation of Property Loss (FLIPLs).

 Container Management-Afghanistan (A-2011-
                                                          AAA       Jun-11   Mar-12
 ALL-0345.000). Objective: TBD

 Bulk Fuel Operations in Afghanistan-Phase II
 (A-2011-ALL-0330.000). Objective: Did Class
 III bulk fuel points in Afghanistan have sufficient
 controls over
                                                          AAA       Aug-11
 storage and distribution operations to ensure the
 accurate accountability of
 fuel products and prevent the unauthorized
 diversion of fuel?


 Agriculture & Counternarcotics
 PLANNED
 PROJECT                                                AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Incentives
 Driving Economic Alternatives for the North,
 East, and West (IDEA-NEW) Program
 Objective: Is USAID/Afghanistan’s Incentives
 Driving Economic Alternatives for the North,           USAID OIG   Feb-11   Jun-11
 East, and West Program (IDEA-NEW) achieving
 its main goal of increasing licit and commercially
 viable agricultural-based alternatives for rural
 Afghans?




Afghanistan
                                                 25
Afghanistan



 PROJECT                                             AGENCY      START    FINAL
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
                                                      SIGAR      Jun-11
 sustainability of USAID grants - with
 International Fertilizer Development Center
 Financial Audit of Development Alternatives
 Inc., Cooperative Agreement No. 306-A-00-09-        USAID OIG            Sep-11
 00508-00, Mar 2, 2009 - September 30, 2010


 Anticorruption
 PLANNED
 PROJECT                                             AGENCY      START    FINAL
 Mitigation of Risk Associated with Direct
 Funding to Afghan Government Objective:
 Determine whether U.S. agencies providing funds
 directly to the Afghan Government have
 performed adequate due diligence to help ensure
 that those funds were protected, properly
                                                      SIGAR      May-11   Dec-11
 accounted for, and used for intended purposes.
 Including an assessment of assistance provided to
 strengthen Afghan budgeting and accounting
 systems to account for these funds and the
 Afghanistan management information system
 (AFMIS).


 Contract Management
 PLANNED
 PROJECT                                             AGENCY      START    FINAL
 Review of USAID/Afghanistan's Pre-Award
 Survey and Certification Process Objective:
                                                     USAID OIG   Nov-10   Mar-11
 Does USAID/ Afghanistan's pre-award and
 certification process need further strengthening?
 Review of Cash Disbursement Practices
 Employed by Selected USAID/Afghanistan
 Contractors and Grantees Objective: Do the
 cash disbursement practices employed by selected    USAID OIG   Feb-11   Jun-11
 USAID/Afghanistan contractors and grantees
 ensure that disbursements are reasonable,
 allocable, and allowable under the agreements?




Afghanistan
                                              26
Afghanistan



 PROJECT                                              AGENCY   START    FINAL
 Implementation of the Afghan First Program
 in Reconstruction Contracting. Objective:
 Review of the systems and controls in place to
 identify Afghan or third-party contractors and
 ensure that applicable laws and regulations (for
 example, “Afghan First”) with respect to these
 firms are being followed; Identify and evaluate      SIGAR    Feb-11
 U.S. government, Afghan government, and
 private sector efforts to develop a database(s) of
 vetted Afghan contractors for use by coalition
 force members seeking to promote the Afghan
 First initiative through prime and subcontractor
 awards.
 Host Nation Trucking - Afghanistan (A-2011-
 ALL-0091.000). Objectives: (1) Determine if the
 Afghanistan HNT contract is properly
 administered and has sufficient internal controls
 over logistics movement requests, transportation
 movement releases, contractor performance, and
                                                       AAA     Mar-11
 the invoice approval process to ensure the proper
 shipment of materiel in support of theater
 operations and to prevent waste and misuse of
 U.S. Government resources. (2) Determine if
 HNT contracts in Afghanistan were properly
 justified and awarded.
 Oversight of Construction Contracts Funded
 by the Afghanistan Security Forces Fund-U.S.
 Army Corps of Engineer's Contracts.
 Objective: Determine whether USACE AED is
 providing effective oversight of Afghanistan
 Security Forces Fund military construction
                                                      DoD IG   Mar-11
 projects in support of the Afghanistan National
 Security Forces. Specifically, to determine
 whether USACE AED is adequately performing
 quality assurance oversight responsibilities and
 properly monitoring contractor performance
 during construction.
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
 sustainability of DOD managed contract to            SIGAR    Mar-11   Aug-11
 Kabuljan Construction Company
 (W91B4M09C7218).



Afghanistan
                                               27
Afghanistan



 PROJECT                                             AGENCY   START    FINAL
 Review U.S. Competitive Award
 Announcement Practices for Afghanistan
 Reconstruction. Objective: Identify the
 mechanisms used to announce competitive             SIGAR    Mar-11
 contract award opportunities for Afghanistan
 reconstruction-funded projects both within and
 outside Afghanistan.
 Review of CCC’s accountability for DOD
 contracting efforts in Afghanistan. Objective:
 Review of CCC’s Business Theater Clearance
 process to assess if DOD is implementing it
                                                     SIGAR    Apr-11   Oct-11
 consistently across all reconstruction contracts
 and contractors in theater and ability to account
 for all DOD contracting efforts in Afghanistan,
 per its FRAGO.
 Review of the FTE resources that DOD, State,
 and USAID use to manage and oversee
 contracts, cooperative agreements, and grants
 for Afghan reconstruction. Objective: Examine
                                                     SIGAR    May-11   Oct-11
 the FTE in place to manage and oversee
 performance of contracts, cooperative
 agreements, and grants by USAID, DOD, and
 State for Afghanistan reconstruction projects.
 LOGCAP Reimbursements (A-2011-ALL-
                                                      AAA     Jun-11   Mar-12
 0343.000) Objective: TBD
 LOGCAP IV Forward Operating Base Band
 Concept (A-2011-ALL-0137.000). Objective:
 Determine if the LOGCAP IV band concept was          AAA     Aug-11
 appropriately applied for the construction and
 support of operating bases in Afghanistan.




Afghanistan
                                               28
Afghanistan



 PROJECT                                              AGENCY   START    FINAL
 Follow-on Review of the Task Orders
 Supporting the DoD Counter Narcoterrorism
 Program Indefinite Delivery, Indefinite
 Quantity (IDIQ) Contracts. Follow-on Audit to
 DoD IG Report No. D2009-109, “Audit of
 Contracts Supporting the DoD Counter
 Narcoterrorism Program,” September 25, 2009.
 Objective: Determine whether the task orders
                                                      DoD IG   Aug-11
 awarded under the basic Indefinite Delivery,
 Indefinite Quantity (IDIQ) contracts are
 consistent with Federal and DoD acquisition and
 contracting policy. Specifically, we will compare
 the DoD Counter Narcoterrorism Technology
 Program Office IDIQ contracts and task orders
 with policy for contracting requirements, contract
 award, contract fee, and contract oversight.
 Oversight of Construction Contracts Funded
 by the Afghanistan Security Forces Fund-Air
 Force Center for Environmental Excellence
 Contracts. Objective: Determine whether Air
 Force Center for Environmental Excellence is
 providing effective oversight of Afghanistan
 Security Forces Fund military construction
                                                      DoD IG   Sep-11
 projects in support of the Afghan National
 Security Forces. Specifically, to determine
 whether Air Force Center for Environmental
 Excellence is adequately performing quality
 assurance oversight responsibilities and properly
 monitoring contractor performance during
 construction.
 Afghan National Police Program. Objective:
 Evaluate the DOD contract awarded in the second
 quarter of FY 2011 for the training and mentoring
 of the Afghan National Police. Specifically, we
                                                      DoD IG   Sep-11
 will determine whether mission requirements
 were translated into appropriate contracting
 vehicles and whether supplies and services
 obtained are meeting contractual requirements.




Afghanistan
                                               29
Afghanistan



 Cross Cutting
 PLANNED
 PROJECT                                              AGENCY      START    FINAL
 Operations and Maintenance Funds in
 Support of Local Nationals in Afghanistan.
 Objective: Determine whether the United States
 Code Title 10 Operations and Maintenance funds
                                                       DoD IG     Mar-11
 have been expended within the intent of the law
 to support operations in Afghanistan and examine
 the expenditures in relation to medical treatment
 facilities in Afghanistan.


 Education & Healthcare
 PLANNED
 PROJECT                                              AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Direct
 Assistance to the Ministry of Public Health in
 Support of the Partnership Contracts for
 Health Services Program Objective: Is
 USAID/Afghanistan’s direct assistance to the
                                                      USAID OIG   Oct-10   Mar-11
 Ministry of Public Health in support of the
 Partnership Contracts for Health Services
 Program achieving its main goal of procuring
 basic and essential packages of health services in
 the target provinces?
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
 sustainability of USAID managed cooperative
                                                       SIGAR      May-11   Sep-11
 agreements with Management Sciences for
 Health: Rural Expansions of Afghanistan’s
 Community Based Healthcare program
 Financial Audit of Deutsche Investitions- und
 Entwicklungsgesellschaft mbh (DEG),
                                                      USAID OIG            Sep-11
 Cooperative Agreement No. 306-A-00-05-
 00512-00, Jan 1, 2009 – Dec 31, 2009




Afghanistan
                                                30
Afghanistan



 Equipment & Property
 PLANNED
 PROJECT                                                 AGENCY   START    FINAL
 Countrywide Crosscutting Compliance of
 Electrical Installations - Afghanistan.
 Objective: National Electrical Code (NEC)
 assessment to address life, health, and safety
 issues compliance with standards, codes,
 regulations and requirements referenced in the
 statement of work to include: electrical
                                                         DoD IG   Apr-11
 distribution system, underground, insulated wire
 and cable, installation of uninterruptable power
 supply system, interior distribution system –
 wiring and cabling, electrical panel switchboards
 and switchgear, interior lighting, exterior lighting,
 basic electrical materials and installation, diesel
 generator set stationary, etc.
 Countrywide Crosscutting Compliance of Fire
 Suppression Systems - Afghanistan. Objective:
 Fire protection systems assessment to address life
 and safety of occupants from fire or similar
 emergencies. fire pumps, automatic sprinkler
                                                         DoD IG   Apr-11
 systems, local fire alarm, smoke detection, wet
 chemical fire extinguishing system, water
 distribution system, seismic protection for
 mechanical equipment, lightning protection
 system, etc.




Afghanistan
                                                  31
Afghanistan



 PROJECT                                               AGENCY   START    FINAL
 Compliance of Water and Wastewater
 Treatment Plants - Afghanistan. Objective:
 Water and wastewater treatment assessment to
 address life, health, and safety issues to ensure
 compliance with National Pollutant Discharge
 Elimination System permit requirements to
 control water pollution at the regulating points
 such as pipes or man-made ditches. Other issues       DoD IG   Apr-11
 may include evaluation of water and wastewater
 system capacity, system reliability, operation,
 maintenance, and rehabilitation of water and
 wastewater treatment plants, water transmission
 and distribution system, water well system
 specifications, plumbing, sanitary sewers,
 foundation.
 Countrywide Crosscutting Assessment of
 Technical Requirements for Construction
 Project - Afghanistan. Objective: To assess the
 development of program and contract technical
 requirements of Military Construction
                                                       DoD IG   Apr-11
 (MILCON) projects in Afghanistan. This would
 entail the review of the technical requirements for
 new construction projects to ensure they contain
 proper Unified Facilities Codes (UFC) to ensure
 the life, health, and safety of the construction.
 Contract Administration and Oversight of
 Military Construction Projects in Afghanistan.
 Objective: Determine whether DoD is providing
 effective oversight of military construction
                                                       DoD IG   Jun-11
 projects. Specifically, to determine whether DoD
 is adequately performing quality assurance
 oversight responsibilities and properly monitoring
 contractor performance during construction.
 Transfer of Property from LOGCAP III to
 LOGCAP IV (A-2011-ALL-0114.000).
 Objective: Determine if the transition of property
                                                        AAA     Aug-11
 from LOGCAP III to LOGCAP IV was executed
 in accordance with regulatory guidance and
 contract requirements.




Afghanistan
                                                32
Afghanistan



 Funds Control
 PLANNED
 PROJECT                                              AGENCY     START    FINAL
 Marine Reserve Mobilization Orders (N2011-
 NMC000-0105.000). To verify that internal
 controls for the issuance and payment of Marine
 Reserve Mobilization Orders are in accordance       NAVAUDSVC   Jan-11   Oct-11
 with the DOD directives for mobilization, Joint
 Federal Travel Regulations (JFTR), and the
 Financial Management Regulation (FMR). (MC)
 Contracts for Small Arms and Associated
 Spare Parts Funded by the Afghanistan
 Security Forces Fund. Objective: To determine
 whether DoD organization contracting procedures
 for ASFF funded small arms and associated spare
                                                       DoD IG    Mar-11
 parts resulted in timely deliveries of reasonably
 priced items. We may also assess the quality of
 delivered items funded by the ASFF and the
 adequacy of associated contractor billing
 procedures.
 U.S. Army Communications Electronics
 Command Contracts to Support the
 Afghanistan National Security Force -
 Biometrics Equipment. Objective: Determine
 whether U.S. Army Communications Electronics
                                                       DoD IG    Jun-11   Mar-12
 Command contracts supported the needs of the
 Afghanistan National Security Force.
 Specifically, we will determine whether
 contracting officials provided quality biometrics
 equipment, in a timely manner.
(MC) = project impacts Multiple Countries




Afghanistan
                                              33
Afghanistan



 PROJECT                                              AGENCY   START    FINAL
 Commercial Vendor Services - Afghanistan.
 The DoD OIG is continuing its reviews of
 commercial vendor services in Southwest Asia.
 Objective: Evaluate the Commercial Vendor
 Services internal controls over compliance with
                                                      DoD IG   Mar-11
 federal tax reporting requirements. Specifically,
 we will determine whether Commercial Vendor
 Services offices in Afghanistan properly reported
 taxable income on Federal information returns as
 required by Federal laws.
 Status of Reconstruction Funding for
 Afghanistan (U.S. and Other Donor Funding).
 Objective: Identify the sources and uses of funds,
 and restrictions that may apply; examine             SIGAR    Apr-11   Aug-11
 reliability of funding data; and examine reasons
 for unobligated funds and unexpended
 obligations.
 Afghan Security Forces Fund FY 2010
 Supplemental and FY 2011 Contingency
 Operations Intragovernmental Service Fees.
 The DoD OIG will determine whether fees
 charged to ASFF orders as part of the Foreign        DoD IG   Jun-11
 Military Sales process are reasonable and do not
 exceed the actual costs incurred in procuring
 goods and services in accordance with applicable
 laws and regulations.
 U.S. Army Communications Electronics
 Command Contracts to Support the
 Afghanistan Nations Security Force - Radio
 Maintenance and Communications
 Requirements. Objective: Determine whether
 U.S. Army Communications Electronics
                                                      DoD IG   Apr-11   Dec-11
 Command contracts supported the needs of the
 Afghanistan National Security Force.
 Specifically, we will determine whether
 contracting officials provided quality
 communications and electronics equipment and
 services, in a timely manner.




Afghanistan
                                               34
Afghanistan



 PROJECT                                               AGENCY   START    FINAL
 Internal Controls Over the U.S. Army
 Contract Payments in Afghanistan. Objective:
 Determine whether internal controls over the U.S.
 Army’s procurement and disbursement                   DoD IG   Jun-11
 processing of contract payments supporting
 operations in Afghanistan are adequate and to
 ensure that payments are proper.
 Use of Government Purchase Cards
 Supporting Operations in Afghanistan.
 Objective: Assess whether the Military
                                                       DoD IG   Jun-11
 Departments use of government purchase cards in
 support of operations in Afghanistan complied
 with applicable laws and regulations.
 Review of Solatia and Condolence Payment
 Programs by U.S. “Reconstruction” Funds to
 Assist Afghan Civilians Harmed by Military
 Operations. Objective: Identify all solatia and
                                                       SIGAR    Sep-11   Feb-12
 condolence programs funded by Afghanistan
 “reconstruction” funds and determine whether
 they are implemented in accordance with
 applicable laws and regulations.


 Government Capacity Building
 PLANNED
 PROJECT                                               AGENCY   START    FINAL
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
 sustainability of USAID managed contracts,
                                                       SIGAR    Jan-11   Jun-11
 cooperative agreements, or grants - with DAI and
 others: Local Governance and Community
 Development Project.
 Review the Status of Efforts to Implement a
 National ID System. Objective: Identify the
 status of U.S. and Afghan government efforts to
 develop a national ID system which will support       SIGAR    Mar-11
 efforts to identify and segregate insurgents from
 law-abiding Afghan citizens as well as promote
 the goal of holding fair and transparent elections.




Afghanistan
                                                35
Afghanistan



 PROJECT                                              AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Regional
 Afghan Municipalities Program for Urban
 Populations for Regional Platforms (RAMP-
 UP) Objectives: Is USAID/Afghanistan’s
 Regional Afghan Municipalities Program for
                                                      USAID OIG   Apr-11   Aug-11
 Urban Populations (RAMP UP) achieving its
 main goal of creating effective, responsive,
 democratic, transparent, accountable, and gender
 sensitive municipal governance in select
 municipalities in Afghanistan?
 Audit of USAID/Afghanistan’s Limited Scope
 Grant in Support of the District Development
 Program (DDP) Objective: Is
 USAID/Afghanistan’s limited scope grant              USAID OIG   May-11   Sep-11
 supporting the District Development Program
 strengthening governance capabilities and
 responsiveness at the district level?
 CNPA Detainee Operations. Objectives:
 Identify U.S. resources and assess the assistance
 and progress made to develop CNPA detainee            SIGAR      Jul-11   Dec-11
 operations and its impact on the prosecution of
 cases at the Counter-Narcotics Justice Center.



 Infrastructure
 PLANNED
 PROJECT                                              AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Strategic
 Provincial Road ─ Southern and Eastern
 Afghanistan Road (SPR-SEA) Project
 Objective: Is USAID/Afghanistan’s Strategic
 Provincial Road - Southern and Eastern               USAID OIG   Oct-10   Mar-11
 Afghanistan Road (SPR-SEA) Project achieving
 its goal of improving the quality of Afghanistan’s
 provincial roads in eastern and southern
 Afghanistan?




Afghanistan
                                               36
Afghanistan



 PROJECT                                               AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s “USAID Air”
 Program Objective: Is USAID/Afghanistan’s
 USAID Air program achieving its main goals of
 providing safe and reliable air service to enable
                                                       USAID OIG   Apr-11   Aug-11
 USAID to supply mission critical transportation
 and freight services in support of provincial
 reconstruction teams and other US Mission
 development assistance programs in Afghanistan?
 Financial Audit of Louis Berger Group Inc. -
 AIRP U.S. costs, Contract No. 306-I-00-06-
                                                       USAID OIG            Sep-11
 00517-00, October 1, 2008 - September 30,
 2010 – Period 2 Audit
 Financial Audit of Black & Veatch - AIRP
 U.S. costs, Contract No. 306-I-00-06-00517-00,
                                                       USAID OIG            Sep-11
 October 1, 2008 - September 30, 2010 – Period
 2 Audit
 Financial Audit of Louis Berger Group
 Inc./Black & Veatch - AIRP Local costs,
                                                       USAID OIG            Sep-11
 Contract No. 306-I-00-06-00517-00, October 1,
 2009 - September 30, 2010 – Period 4 Audit

 Other
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Support for
 Increased Electoral Participation (IEP)
 Activity and Support to Electoral Process
 (STEP) Activity in Afghanistan Objective: Is
 the IEP activity successfully strengthening the
 ability of political parties to translate citizen
                                                       USAID OIG   Dec-10   Apr-11
 concerns into party platforms and campaigns,
 helping the media cover elections, and
 encouraging citizen participation in the election
 process? Is the STEP activity achieving long-term
 institutional development of electoral institutions
 and supporting fair and transparent elections?




Afghanistan
                                                37
Afghanistan



 PROJECT                                            AGENCY      START    FINAL
 Audit of USAID/Afghanistan’s Afghanistan
 Stabilization Initiative (ASI) – Southern
 Region Objective: USAID/Afghanistan’s
 Afghanistan Stabilization Initiative (ASI) –
 Southern Region achieving its main goals of (i)
 building confidence between communities and
                                                    USAID OIG   Apr-11   Aug-11
 the Afghan Government through the
 improvement of the economic and social
 environment in the region and (ii) increasing
 public access to information about Afghan
 Government social, economic, and political
 activities and policies?
 Audit of Internal Controls Over the Separate
 Maintenance Allowance at
 USAID/Afghanistan Objective: Has
                                                    USAID OIG   May-11   Sep-11
 USAID/Afghanistan adopted appropriate internal
 controls to prevent improper use of the separate
 maintenance allowance benefit?


 Physical Security & Personnel Security
 PLANNED
 PROJECT                                            AGENCY      START    FINAL
 MERO: Review of Emergency Action Plan
 (EAP) of Embassies Baghdad, Kabul, and
 Islamabad (Program Evaluation). Purpose: To
 evaluate and assess the current status and
 effectiveness of the Emergency Action Plans for     DoS OIG    Jun-11
 Embassies Baghdad, Kabul, and Islamabad to
 determine the reasonableness and their level of
 coordination and cooperation with the military
 commanders in-country. (MC)
 Review of the Use of Biometrics Information in
 Afghanistan by U.S., Coalition Forces, and
 Afghan Government Entities . Objective:
 Identify the range and application of biometrics
                                                     SIGAR      Jun-11   Nov-11
 data collection efforts in Afghanistan. Review
 and assess the extent of coordination between
 U.S., coalition forces, and Afghan efforts to
 collect, process, and utilize such data.
 (MC) = project impacts Multiple Countries




Afghanistan
                                              38
Afghanistan


 Reconstruction
 PLANNED
 PROJECT                                            AGENCY      START    FINAL
 Commander's Emergency Response Program
 (A-2011-ALL-0342.000). Objective: Determine
 whether the Commander’s Emergency Response           AAA       Mar-11   Dec-11
 Program in Afghanistan was achieving the overall
 intent of the program.
 Review USAID’s Use of Host Country
 Contracting to Deliver Development
 Assistance. Objective: Examine the FTE in place
 to manage and oversee performance of contracts,     SIGAR      Jun-11   Nov-11
 cooperative agreements, and grants by USAID,
 DOD, and State for Afghanistan reconstruction
 projects.
 Financial Audit of Chemonics International,
 306-DOT-I-01-08-00033-00, Jun 26, 2009 –           USAID OIG            Sep-11
 September 30, 2010
 Financial Audit of Development Alternatives
 Inc., 306-DOT-I-02-08-00035-00, Jun 26, 2009       USAID OIG            Sep-11
 - September 30, 2010

 Services
 PLANNED
 PROJECT                                            AGENCY      START    FINAL
 Private Security Contract Audit: Review of
 PSC (selection from Hart Security Limited,
                                                     SIGAR      Mar-11   Aug-11
 SSSI or ISS, Compass, Blue Hackle, or
 DynCorp
 Private Security Contract Audit: Review of
 PSC (selection from Hart Security Limited,
                                                     SIGAR      May-11   Sep-11
 SSSI or ISS, Compass, Blue Hackle, or
 DynCorp
 Private Security Contract Audit: Review of
 PSC (selection from Hart Security Limited,
                                                     SIGAR      Aug-11   Feb-12
 SSSI or ISS, Compass, Blue Hackle, or
 DynCorp




Afghanistan
                                             39
Afghanistan



 Training & Equipping National Security Forces
 PLANNED
 PROJECT                                               AGENCY   START    FINAL
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
 sustainability of Air Force managed contract to       SIGAR    Nov-10   Apr-11
 Lakeshore Engineering for Camp Bastion Airfield
 Runway, Phase I. (ASFF)
 Performance Audit of USACE O&M contracts
                                                       SIGAR    Feb-11   Jun-11
 for the ANA and ANP facilities
 Review of Border Control & Afghan Border
 Police Development Objective: Identify U.S.
 assistance for developing the afghan border
 policy and assess the sufficiency of ABP force
 levels and capabilities, including force size and
                                                       SIGAR    Mar-11   Jul-11
 distribution, current capabilities, improvements
 made to border control, metrics used to evaluate
 improvements, and resources used to secure and
 build border capacity including biometrics
 screening process.
 Focused Contract Audit: Review of
 performance, cost, agency oversight, and
 sustainability of USACE contracts awarded to
 Technologists, Inc., including ANP garrison at        SIGAR    Mar-11   Aug-11
 Khost, an ANP National Training Center at
 Wardak, and design and construction for ANCOP
 in Kabul.
 Training of the Afghan National Police.
 Objective: Evaluate the effectiveness of efforts to
 train (1) new Afghan National Police personnel,       DoDIG    Apr-11
 and (2) existing "untrained" Afghan National
 Police personnel.
 Performance review of Basic Police Training
 (FPDD, DPDD, FBD). Objective: Performance
 evaluation of the basic police training programs,
 including FPDD, DPDD and FBD. Identify
                                                       SIGAR    May-11   Oct-11
 amount invested into basic police training
 programs, extent contractors utilized to perform
 training duties, progress against goals of program,
 lessons learned, and sustainment of program.




Afghanistan
                                                40
Afghanistan



 PROJECT                                             AGENCY    START    FINAL
 U.S. and Coalition Efforts to Develop the
 Afghan National Army Air Force. The DODIG
                                                     DoDIG     Jun-11
 will evaluate efforts to build, train, equip and
 sustain the Afghan National Army Air Force.
 Highway Policing and Road Security.
 Objective: Assess the performance of US
 program and plans in place for developing ANSF      SIGAR     Sep-11   Feb-12
 capacity to secure roads, including how road
 security incidents are reported and managed.
 Review of the Bureau of Diplomatic Security
 (DS) Afghanistan Anti-Terrorism Assistance
 (ATA) Training Program Purpose: To provide
 an overall review and summary of the
 requirements, provisions, and costs of the
 Afghanistan Anti-Terrorism Assistance (ATA)
 Training Program; goals and objectives of the
                                                     DoS OIG
 program, what indicators have been established to
 measure performance; and how DS administers
 the program to ensure performance and costs of
 the program are meet. Assess the status of
 program records, management controls, costs,
 and value of this program to the mission of the
 Department of State.


 Warfare Support
 PLANNED
 PROJECT                                             AGENCY    START    FINAL
 DoD Countermine and Improvised Explosive
 Device Defeat Systems Contracts-Vehicle
 Optical Sensor System (VOSS). Objective:
 Determine whether the Joint Improvised
 Explosive Device Defeat Organization and
 Army’s procurement efforts for the Vehicle
                                                     DoD IG    Mar-11
 Optical Sensor System used on RG-31 and Joint
 Explosive Ordnance Disposal Rapid Response
 Vehicle in Iraq and Afghanistan were developed,
 contracted, and managed in accordance with
 Federal and Defense acquisition regulations.
 (MC)
(MC) = project impacts Multiple Countries




Afghanistan
                                              41
Afghanistan



 PROJECT                                               AGENCY     START    FINAL
 Navy Individual Augmentee Reintegration
 Process (N2011-NFO000-0062.000). To verify
 that Navy Individual Augmentees (IAs) are
                                                      NAVAUDSVC   May-11
 receiving the support needed throughout the
 deployment cycle to reintegrate with family,
 community, and employers. (MC)
 Periodic Health Assessment (PHA)
 Requirements for Navy Reserve Accessions
 (N2011-NFO000-0059.000). To verify that the
 Navy Reserve Forces Command (NAVRESFOR)              NAVAUDSVC   Jun-11
 is efficiently and effectively completing Periodic
 Health Assessment (PHA) requirements for Navy
 Reserve accessions. (MC)
 Navy Safe Harbor Non-Medical Care
 Management (N2011-NFO000-0051.000). To
 verify that the Navy Safe Harbor (SH) provides
 effective Non-Medical Care Management                NAVAUDSVC   Jul-11
 (NMCM) to Wounded, Ill, and Injured (WII)
 Sailors, their families, and caregivers throughout
 the recovery phase. (MC)
(MC) = project impacts Multiple Countries




Afghanistan
                                               42
Iraq



IRAQ


 Accountability and Maintenance of Equipment
 ONGOING
 PROJECT                                                 AGENCY   START    FINAL
 Controls Over Shipping Container
 Accountability and Visibility - Iraq (A-2009-
 ALL-0593.000). Objective: Did command have
                                                          AAA     Jun-09   Mar-11
 sufficient controls over the accountability and
 visibility of shipping containers to support
 Responsible Drawdown operations in Iraq?
 Controls Over the Accountability and
 Disposition of Government Furnished
 Property in Iraq (D2009-D000JB-0307.000)
 This audit is being conducted in response to a
 U.S. Central Command request to focus oversight
 on asset accountability to ensure that U.S. funded
 assets are properly accounted for and that there is
 a process for the proper transfer, reset, or disposal
 of assets. Objective: Determine whether DoD
 has adequate controls over Government-furnished
                                                         DoD IG   Sep-09   Mar-11
 property, and whether policies and procedures
 exist for the proper transfer, reset, or disposal of
 Government-furnished property, and whether
 those policies and procedures are being executed
 adequately. A series of reports is planned. Report
 D-2010-088 addresses controls over the
 accountability and disposition of government
 furnished property in Iraq. The second report will
 address property accountability within
 CENTCOM Contracting Command contracts.
 Redistribution Property Assistance Teams (A-
 2010-ALL-0338.000). Objective: Determine if
 agreed-upon Redistribution Property Assistance
                                                          AAA     Jan-10   Feb-11
 Teams-related recommendations in Audit Report
 A-2009-0085-ALL were implemented and
 corrective actions fixed the problems.




Iraq
                                                 43
Iraq



 PROJECT                                              AGENCY   START    FINAL
 Base Drawdown Asset Management (F2010-
 FC4000-0308). Objective: Determine whether
 Air Force personnel effectively managed base
 drawdown assets. Specifically, determine if Air
 Force personnel have established adequate plans
                                                       AFAA    Feb-10   Feb-11
 and procedures for asset management at
 closing/drawdown installations, identified and
 documented all installation assets, and planned
 the related disposition (retention, transfer,
 disposal) for the assets.
 Disposal of Army Equipment and Materials
 Into Dump Sites in Iraq (A-2010-ALL-
 0311.001). Objective: Are Army units complying
 with guidance on the disposal of Army equipment       AAA     Feb-10   Mar-11
 and materials into dump sites in Iraq? Are Army
 units' use of dump sites enhancing the drawdown
 mission in Iraq?
 Night Vision Equipment Management (F2010-
 FD3000-0034). Objective: Determine whether
 Air Force personnel effectively manage night
 vision equipment. Specifically, determine
 whether Air Force personnel (a) accurately
                                                       AFAA    Mar-10   Feb-11
 determine night vision equipment requirements
 and correctly maintain associated authorizations
 to meet anticipated mission needs, and (b)
 properly account for on-hand night vision
 equipment assets. (MC)
 U.S. Equipment Transferred to Iraq (A-2010-
 ALL-0312.000). Objective: Evaluate whether the
 Theater process for transferring specific property
                                                       AAA     Mar-10   Apr-11
 to the government of Iraq, as part of Responsible
 Drawdown, conforms to DOD policies and Title
 X authority.
(MC) = project impacts Multiple Countries




Iraq
                                               44
Iraq



 PROJECT                                               AGENCY   START    FINAL
 DOD Iraq Drawdown Planning (351476). Key
 Questions: (1) To what extent have DOD’s
 retrograde processes and IT systems ensured the
 accountability, visibility, and timely disposition
 of equipment? (2) To what extent has DOD
 planned for and begun to execute the tasks
 necessary to draw down the remaining U.S.
 military personnel and equipment from Iraq
 between Sept. 1, 2010 and Dec. 31, 2011? (3) To        GAO     Apr-10
 what extent has DOD met its goal of increasing
 the proportion of local national contractors
 performing work in Iraq and ensured adequate
 oversight? (4) What other factors may impact
 DOD’s ability to effectively and efficiently
 complete the withdrawal of forces and equipment,
 and what contingency plans does the department
 have in place? (DCM)
 Follow-up of Retrograde Operations-
 MultiClass Supplies in SWA (A-2010-ALL-
 0260.000). Objectives: (1) Determine if the Army
 implemented the recommendations from Audit
 Report A-2009-0080-ALL, and if so, did the
                                                        AAA     May-10   Feb-11
 corrective actions fix the problems. (2) Determine
 if the Army has adequate policies, procedures,
 and capabilities to effectively retrograde
 multiclass supplies and materiel from Iraq in
 support of responsible drawdown operations.
 Followup of Retrograde Operations in
 Southwest Asia - Class VII Equipment (A-
 2010-ALL-0258.000). Objective: Determine if
 the Army implemented the recommendations
 from the prior audit and if corrective actions were    AAA     May-10   Mar-11
 effective. Evaluate the Army's capabilities and
 capacities to effectively reset equipment and
 materiel from Iraq as part of the Responsible
 Drawdown.




Iraq
                                                45
Iraq



 PROJECT                                               AGENCY      START    FINAL
 Drawdown and Reset of Equipment in Iraq -
 Supply Support Activity and Central
 Receiving and Shipping Point Operations in
 Iraq (D2010-D000JB-0219.000). This audit is
 being conducted in response to a U.S. Central
 Command request to focus oversight on asset
 accountability to ensure that U.S. funded assets
 are properly accounted for and that there is a
 process for the proper transfer, reset, or disposal
 of assets. Objective: Determine whether DoD is
 effectively managing operations at the Supply          DoD IG     May-10   Mar-11
 Support Activities and Central Receiving and
 Shipping Points in Iraq. Specifically, we will
 evaluate the process for the disposition of
 equipment leaving Iraq and whether that process
 ensures timely accountability, visibility, and
 redistribution of the equipment to efficiently and
 effectively meet DoD needs. We will also
 determine whether adequate security procedures
 are in place to ensure that equipment shipped
 from Iraq is received at its intended destination.
 Audit of USAID/Iraq's Nonexpendable
 Property Objective: Did USAID/Iraq manage its
 nonexpendable property effectively so that            USAID OIG   Jun-10   Dec-10
 vulnerabilities to loss, mismanagement, neglect,
 fraud, and theft have been minimized.
 Small Arms and Light Weapons Management
 (F2010-FC4000-0028). Objective: Assess if
 property custodians properly manage small arms
 and light weapons. Specifically, assess if
                                                         AFAA      Jul-10   Jul-11
 custodians accurately account for items, promptly
 report on-hand discrepancies, adequately store
 and protect items, and appropriately deploy small
 arms and weapons. (MC)
(MC) = project impacts Multiple Countries




Iraq
                                                46
Iraq



 PROJECT                                                 AGENCY   START    FINAL
 Special Operations Forces Plans for the
 Drawdown and Reset of Property in Iraq
 (D2010-D000JA-0241.000). Objective: Evaluate
 the Special Operations Forces' plans for the
 drawdown and reset of assets in Iraq. This
 includes ensuring a process exists for the proper
 transfer, reset, or disposal of assets. Specifically,
                                                         DoD IG   Jul-10   Jun-11
 we will determine whether the Special Operations
 Forces drawdown plan defines clear roles,
 responsibilities, and lines of reporting; addresses
 issues including property accountability,
 visibility, reset, and return; and sets realistic
 milestones for the initiation and completion of
 drawdown and reset activities.
 Aircraft Fuels Servicing Equipment (F2010-
 FC4000-0033). Objective: Determine whether
 aircraft fuels servicing equipment is effectively
 managed. Specifically, evaluate whether                  AFAA    Aug-10   Aug-11
 personnel properly identify and support refueling
 truck and support equipment requirements, and
 accurately account for these items. (MC)
 U.S. Equipment Transferred to Iraq (USETTI)
 - Phase II (A-2011-ALL-0107.000).
 Objective:Determine whether the proper
 organizational structures, policies,
                                                          AAA     Oct-10   May-11
 and processes are in place to ensure commands
 can sufficiently execute the U.S. Equipment
 Transfer to Iraq in accordance with established
 transfer authorities.
 Audit of the Foreign Excess Personal Property
 (FEPP) Program - Phase II (A-2011-ALL-
 0092.000). Objective: To determine if U.S.
 Forces - Iraq have sufficient processes in place to
                                                          AAA     Jan-11   Aug-11
 execute the Foreign Excess Personal Property
 (FEPP) Program IAW the established transfer
 authority, including properly documenting
 equipment transfers to the Government of Iraq.
(MC) = project impacts Multiple Countries




Iraq
                                                 47
Iraq



 PROJECT                                           AGENCY   START    FINAL
 Technical Order Management (F2011-
 FC2000-0025). Objective: Evaluate whether Air
 Force personnel effectively manage Technical
 Orders (TOs) and Time Compliance Technical
 Orders (TCTOs) in Southwest Asia. Specifically,    AFAA    Feb-11   Dec-11
 determine if personnel effectively distribute
 Technical Orders and TCTOs and properly
 implement support equipment and parts TCTOs.
 [TDY footprint in AOR Jun - Aug 2011] (MC)
(MC) = project impacts Multiple Countries

 Agriculture & Counternarcotics
 ONGOING
 PROJECT                                           AGENCY   START    FINAL
 Audit of USAID Iraq's Agriculture Private
 Sector Development Agribusiness Program
 Objective: Was USAID/Iraq's Agriculture Private
                                                   USAID    Nov-09   Oct-10
 Sector Development - Agribusiness Program is
 providing effective support for economic
 diversification and job creation?




Iraq
                                            48
Iraq



 Contract Management
 ONGOING
 PROJECT                                             AGENCY   START    FINAL
 Maintenance and Support of the Mine
 Resistant Ambush Protected Vehicle (D2009-
 D000CK-0100.000). Objective: Determine
 whether Mine Resistant Ambush Protected
 vehicle program and contracting officials are
 adequately supporting Resistant Ambush
 Protected vehicle maintenance requirements and
 appropriately awarding and administering
 maintenance contracts. A series of reports is
                                                     DoD IG   Dec-08   Apr-11
 planned for this project. Report No. D-2010-068
 addresses government oversight of field service
 representative and instructor services in support
 of the MRAP program. Report D-2010-068
 addresses government oversight of field service
 representative and instructor services in support
 of the MRAP program. Report D-2011-036
 addresses competition for instructor services
 for the MRAP.
 Deployment of the Standard Procurement
 System in the Joint Contracting Command
 Iraq/Afghanistan (D2009-D000FB-0112.000).
 Objective: Determine whether the deployment of
 the Standard Procurement System to include the      DoD IG   Feb-09   Apr-11
 Standard Procurement System Contingency in the
 Joint Contracting Command Iraq/Afghanistan,
 was properly planned and executed. This is the
 second in the series. (MC)
 Quality Assurance Over Maintenance
 Contracts (F2010-FC2000-0021). Objective:
 Determine whether Air Force officials established
 adequate controls for managing selected
 maintenance contracts. Specifically, determine if    AFAA    Jan-10   Feb-11
 Air Force personnel (a) effectively monitored
 contract performance, (b) properly documented
 maintenance actions, and (c) accurately tracked
 aircraft flying hours.
(MC) = project impacts Multiple Countries




Iraq
                                              49
Iraq



 PROJECT                                                AGENCY   START    FINAL
 International Oil Trading Company Contracts
 to Supply Fuel to U.S. Troops in Iraq (D2009-
 D000CH-0244.000). Objective: Review the
 Defense Energy Support Center's decision to
 award the International Oil Trading Company a
 series of contracts for the delivery of fuel through
 Jordan to U.S. troops in Iraq. Specifically, the
 audit will determine whether prices paid were fair
 and reasonable, whether an exclusive supply
 arrangement had an impact on prices, and               DoD IG   Jul-09   Mar-11
 whether the fuel needs to be supplied through
 Jordan. We will also include reviewing the
 internal controls related to the receipt,
 acceptance, invoicing, and payment processes and
 procedures for fuel and a review of the Defense
 Energy Support Center's decision to award the
 International Oil Trading Company a series of
 contracts for the delivery of fuel through Jordan
 to U.S. troops in Iraq.
 Commercial Vendor Services Compliance with
 Federal Tax Reporting Requirements for
 Contractors Supporting Operations in
 Southwest Asia (D2009-D000FH-0292.000).
 Objective: Determine whether the Commercial            DoD IG   Sep-09   Feb-11
 Vendor Services in Iraq complied with federal tax
 reporting requirements for payments to
 contractors in support of operations in Southwest
 Asia for calendar years 2006 through 2008.
 Audit of the Contract for Warehousing and
 Distribution Services at Abu Ghuraib and the
                                                         SIGIR   Mar-10   Mar-11
 Port of Um Qasr (Project 1009). Objective:
 Cost, outcome, and oversight of the contract
 Realignment of Contractor Support in
 Response to Future Drawdown of Forces from
 Iraq (D2010-D000JB-0211.000). Objective:
 Review the planning and management of actions
 taken to adjust contractor support in response to
                                                        DoD IG   May-10   Apr-11
 the drawdown of U.S. forces from Iraq.
 Specifically, we will evaluate the process and
 methodology used to determine descoping actions
 associated with the LOGCAP contract. (Section
 842)




Iraq
                                                 50
Iraq



 PROJECT                                              AGENCY   START    FINAL
 Follow-Up Audit - U. S. Air Forces Central
 (AFCENT) Service Contract Management
 (F2010-FD3000-0430). Objective: Evaluate
 management actions taken in response to Report
 of Audit F2007-0005-FD3000, CENTAF
                                                       AFAA    Jul-10   Jun-11
 Deployed Locations Services Contract
 Management, 20 April 2007. Specifically, assess
 whether AFCENT personnel properly validate
 contract requirements and adequately monitor
 contractor performance. (MC)
 Contract for Recycling and Disposing of Waste
 Materials at Camp Steeler, Iraq (A-2009-ALL-
 0571.000). Objectives: Determine if the
 contractor performed according to the terms,
 specifications, and conditions of the contract.
                                                       AAA     Jul-10   Mar-11
 Sub-objectives: Evaluate the sufficiency of
 controls over (1) payments to the contractor (2)
 delivery of material for recycling and costs
 associated with recycling (3) delivery and use of
 fuel.
 Close-out of Iraq Contracts (120931). Since
 2003, DOD awarded more than 80,000 contracts
 worth tens of billions of dollars to support post-
 conflict reconstruction and stability efforts. (1)
 What is the number and value of contracts to be
 closed-out in Iraq and to what extent does DOD
 have the resources to close-out these contracts in
 a timely manner? (2) To what extent has the           GAO     Jul-10
 Department established procedures to ensure that
 the contractors’ costs are allowable, allocable,
 and reasonable? (3) To what extent has DOD
 established a process to identify and disseminate
 lessons learned during the contract close-out
 process to help improve further acquisition
 efforts? (ASM)
(MC) = project impacts Multiple Countries




Iraq
                                               51
Iraq



 PROJECT                                             AGENCY    START    FINAL
 MERO: Review of Operations and
 Maintenance Costs for Embassy Baghdad
 (Contract Evaluation). Purpose: The primary
 objectives of this audit are to determine: 1) the
 requirements and provisions of the contract and
 task orders; 2) the amount of funding the
 Department has obligated and expended to
 provide embassy facility operations and
 maintenance through contracts for fiscal years
 2005-2010; 3) the effectiveness of PAE’s contract
 performance in providing facility operations and
                                                     DoS OIG   Jan-11   Aug-11
 maintenance to Embassy Baghdad; 4) PAE's
 controls for inventorying, recording, and
 safeguarding U.S. Government- furnished
 equipment and property in Iraq, whether the
 equipment has been properly accounted for, and
 the challenges to maintaining accountability; 5)
 how well the Department administers and
 manages the contract and task orders to provide
 oversight of PAE’s performance in Iraq; and 6)
 how the Department ensures that costs are
 properly allocated and supported.
 Audit of the Cost, Outcome, and Management
 of the Fallujah Wastewater Treatment Plant
 Project (Project 1018). Objective: to determine
                                                      SIGIR
 cost, outcome, and management of the project.
 This audit may result in more than one report and
 the objectives could be modified over time.




Iraq
                                              52
Iraq



 Cross Cutting
 ONGOING
 PROJECT                                               AGENCY   START    FINAL
 Defense Hotline Allegations Concerning
 Traumatic Brain Injury Research Integrity in
 Iraq (D2009-D00SPO-0242.000). Objectives:
 The assessment was initiated in response to
 allegations made to the Defense Hotline. The
 overall objective is to review the allegations made
 to the Defense Hotline concerning Traumatic
                                                       DoD IG   Jun-09   Mar-11
 Brain Injury research integrity in Iraq.
 Specifically, we will determine whether DoD
 guidance regarding the performance of research
 on human subjects was violated, and whether
 research misconduct occurred in a DoD approved
 clinical research trial evaluating the treatment of
 mild traumatic brain injury.
 Congressional Request Review of U.S. Army
 Response to Sodium Dichromate Exposure at
 Qarmat Ali, Iraq (D2009-DIPOE3-0306.000).
 Objective: Conduct an investigation into the
 exposure of U.S. soldiers to sodium dichromate, a
 carcinogen, at the Qarmat Ali, Iraq water
 treatment plant to (1) ascertain the efforts of the
 U.S. Army and contractors to protect the safety       DoD IG   Sep-09   May-11
 and health of government and contractor
 personnel working at the site in 2003 and (2)
 evaluate the adequacy and timeliness of efforts to
 identify, contact, and provide access to
 appropriate health care for soldiers potentially
 exposed. Report SPO-2010-006 discusses part
 one of this project. A second report is planned.
 U.S. Strategy and Joint Campaign Plan for
 Iraq (320734). Key Questions: (1) To what
 extent does the 2010 Joint Campaign Plan for
 Iraq include key planning elements called for by
 military doctrine for campaign planning as
 defined by Joint Publication
                                                        GAO     Nov-09
 5-0? (2) What are the current conditions and
 projected needs for the security situation in Iraq
 and the capability of the Iraqi Security Forces?
 (3) To what extent have the Departments of
 Defense and State developed plans to address
 risks to the campaign? (IAT)



Iraq
                                                53
Iraq


 PROJECT                                               AGENCY    START    FINAL
 Review of Embassy Baghdad Transition
 Planning–Phase II (DoD Downsizing).
 Purpose: A follow-on review of the transition
 planning mechanisms in place within the
 Department and between the Department and the
 U.S. Military and the Government of Iraq; what
 decisions and actions Department planners have
                                                       DoS OIG   Jul-10   Mar-11
 completed concerning key transition issues,
 including ICASS, security, logistical support,
 transportation, and the status of regional offices
 and Provincial Reconstruction Teams; and how
 the Department is planning to meet the expected
 costs associated with increased Department roles
 and responsibilities.
 Evaluation of the Commander's Emergency
 Response Program. Objective: to provide a
 statistical analysis of the geographic distribution
 of CERP spending in Iraq, and to assess the            SIGIR    Sep-10   Mar-11
 efficacy of the funds disbursed through CERP to
 assist local commanders improving stability and
 security in their areas of responsibility.
 Review of Ministerial Capacity Building
 Efforts in Iraq. The objectives of this review are
 to determine the status of U.S. Government-
 funded programs for building capacity in selected
 ministries of the Government of Iraq (GoI) and to
 assess whether the programs have enhanced the          SIGIR    Nov-10
 capacity of the ministries to perform critical
 government functions. In addition, we will assess
 whether the various capacity building programs
 have contributed to overall GoI performance and
 to U.S. Government strategic goals in Iraq.
 Audit of the Status of Recommendations Made
 to the Department of Defense (Project 1102).
 Objective: to determine whether DoD has taken
                                                        SIGIR
 action on audit recommendations made by SIGIR.
 This audit may result in more than one report and
 the objectives could be modified over time.
 Audit of the Status of Recommendations Made
 to the Department of State (Project 1103).
 Objective: to determine whether DoS has taken
                                                        SIGIR
 action on audit recommendations made by SIGIR.
 This audit may result in more than one report and
 the objectives could be modified over time.



Iraq
                                                54
Iraq



 PROJECT                                              AGENCY   START    FINAL
 Audit of the Status of Recommendations Made
 to the U.S. Agency for International
 Development (Project 1104). Objective: to
 determine whether USAID has taken action on           SIGIR
 recommendations made by SIGIR. This audit
 may result in more than one report and the
 objectives could be modified over time.

 Funds Control
 ONGOING
 PROJECT                                              AGENCY   START    FINAL
 Forensic Audits (Project 9005). Objective: To
 determine whether DoD contractor invoices and
 electronic transactions may have included
 overcharges for goods and services to identify
 possible instances of fraud, waste, and abuse and
 internal control weaknesses that enabled these        SIGIR   Jan-09
 overcharges to occur. This audit addresses the
 DoD portion of SIGIR's mandate to produce a
 final forensic audit. Several interim reports have
 been issued under this code and will be continue
 to be issued periodically until October 2012.




Iraq
                                                55
Iraq



 PROJECT                                               AGENCY   START    FINAL
 Internal Controls and Data Reliability in the
 Deployable Disbursing System (D2007-
 D000FL-0252.000) A series of reports is planned
 for this project. Objective: Determine whether
 the internal controls over transactions processed
 through the Deployable Disbursing System are
 adequate to ensure the reliability of the data
 processed. The audit series will include financial
 information processed by disbursing stations
 supporting the Global War on Terror and will
 also follow up on our “Internal Controls Over
                                                       DoD IG   Aug-10   Apr-11
 Out-of-Country Payments,” (Project No. D2006-
 D000FL-0208.000). The first report, D-2009-054,
 addresses U.S. Marine Corps (USMC) processed
 disbursement transactions that contain classified
 information into unclassified DoD systems. D-
 2010-037 addresses internal controls of USMC
 commercial and miscellaneous payments
 processed through the Deployable Disbursing
 System. D-2010-038, (CLASSIFIED REPORT)
 addresses classified information in an unclassified
 DoD system. (MC)
 Audit of the Status of the Iraq Relief and
 Reconstruction Fund II (1014b). Objective.
 Determine the extent to which funds appropriated       SIGIR   Aug-10   Apr-11
 for the IRRF II have been obligated and
 liquidated.
 Audit of the Use of Funds for the
 Commander's Emergency Response Program
 for FY 2011 (Project 1101). Objective: To
 assess United States Forces–Iraq (USF-I) plans
                                                        SIGIR
 for the use and management of CERP funds for
 fiscal year 2011. This audit may result in more
 than one report and the objectives could be
 modified over time.
 Audit of Funds Provided for the Iraqi
 Commander's Emergency Response Program
 (Project 1105). Objective: to determine how
 Government of Iraq funds provided to the I-            SIGIR
 CERP program were managed and used by DoD.
 This audit may result in more than one report and
 the objectives could be modified over time.
 (MC) = project impacts Multiple Countries



Iraq
                                                56
Iraq


Government Capacity Building
ONGOING
PROJECT                                              AGENCY      START    FINAL
Audit of the USAID/Iraq's Community Action
Program III Activity Objective: Has
USAID/Iraq's Community Action Program III
                                                     USAID OIG   Feb-10   Oct-10
been effective in supporting community
organizations, community-level projects, and
assistance to victims of armed conflict?

Audit of USAID/Iraq's Local Governance
Program III Activities Objective: Have
USAID/Iraq's Local Governance Program III been       USAID OIG   Sep-10   Feb-11
effective in supporting decentralization of
government resources and capabilities?


Infrastructure
ONGOING
PROJECT                                              AGENCY      START    FINAL
Audit of USAID/Iraq's Microfinance Activities
Under Its Provincial Economic Growth
Program Objective: Are USAID/Iraq's
                                                     USAID OIG   Apr-10   Oct-10
microfinance activities achieving their main goal
of increasing access to inclusive and sustainable
services in Iraq?


Other
ONGOING
PROJECT                                              AGENCY      START    FINAL
Audit of USAID/Iraq's Payroll Payments to
Foreign Service Third Country Nationals, and
U.S. Personal Services Contractors Objective:
Did USAID/Iraq properly calculate and disburse
                                                     USAID OIG   May-10   Nov-10
payroll payments to its foreign service national,
third-country national, and U.S. personal services
contractor workforce in accordance with
established regulations, policies, and procedures?




Iraq
                                               57
Iraq



 Physical Security & Personnel Security
 ONGOING
 PROJECT                                             AGENCY      START    FINAL
 Survey of Incidents Reported by Private
 Security Contractors of USAID/Iraq’s
 Contractors and Grantees Objective: What
 types of security incidents have been reported by   USAID OIG   Sep-09   Apr-11
 personal security firms contracted with
 USAID/Iraq’s implementing partners during the
 two-year period ending June 30, 2009?
 U. S. Air Forces Central (AFCENT) Deployed
 Locations Computer Network Controls
 (F2010-FB4000-0614). Objective: Determine
 whether AFCENT personnel effectively
 controlled access to the networks in the AFCENT
 Area of Responsibility. Specifically, determine
                                                       AFAA      Jul-10   May-11
 whether AFCENT personnel properly (a) identify
 contractors and foreign nationals with access to
 AFCENT networks, (b) authorize network access
 for contractors and foreign nationals, and (c)
 establish network user accounts for contractors
 and foreign nationals. (MC)
 Audit of the Status of Oversight of Private
 Security Contractors In Iraq (Project 1019).
 Objective: Evaluate the current processes to
 coordinate and integrate oversight of the use of
                                                       SIGIR     Nov-10   Apr-11
 the private security contractors in Iraq and
 follow-up on prior recommendations. This audit
 may result in more than one report and the
 objectives could be modified over time.
 (MC) = project impacts Multiple Countries

 Reconstruction
 ONGOING
 PROJECT                                             AGENCY      START    FINAL
 Contracting for U.S. Facilities in Iraq (D2010-
 D000JB-0158.000). Objective: Determine
 whether ongoing and planned contracts to build
                                                      DoD IG     Feb-10   Mar-11
 or refurbish U.S. facilities in Iraq are based on
 valid requirements and in consideration of the
 drawdown of U.S. forces from Iraq.




Iraq
                                               58
Iraq


 Services
 ONGOING
 PROJECT                                              AGENCY   START    FINAL
 Audit of USACE's Plans and Processes to
 Transfer Ongoing Projects to the Government
 of Iraq (Project 1017). Objective: to determine
 the plans and processes used to complete and
                                                       SIGIR   Oct-10   Apr-11
 transfer ongoing USACE-managed reconstruction
 projects to the Government of Iraq (GOI). This
 audit may result in more than one report and the
 objectives could be modified over time.

 Training & Equipping National Security Forces
 ONGOING
 PROJECT                                              AGENCY   START    FINAL
 U.S. Government Efforts to Transition the
 Security Assistance Mission Supporting the
 Government of Iraq from Department of
 Defense Authority to Department of State
 Authority (D2009-D00SPO-0287.000).
 Objectives: Determine whether U.S. government
 goals, objectives, plans, and guidance are issued
 and operative for the transition of the Iraqi
                                                      DoD IG   Aug-09   Apr-11
 Security Assistance Mission from DoD authority
 to an office of security cooperation under
 Department of State authority and whether U.S.
 efforts to provide security assistance to the
 Government of Iraq are adversely impacted by
 the drawdown of U.S. Forces in Iraq. The DoD
 OIG plans to issue a series of reports on this
 matter.
 Evaluation of DoD Institutional Guidance
 Supporting the Establishment of an Office of
 Security Cooperation (D2009-D00SPO-
 0287.001). Objective: Determine whether U.S.
 Government goals, objectives, plans and guidance
                                                      DoD IG   Aug-09   Jun-11
 are issued and operative for the transition of the
 Iraqi Security Assistance Mission from DoD
 authority to an office of security cooperation
 under Department of State authority. The DoD
 OIG plans a series of reports on this subject.




Iraq
                                               59
Iraq



 PROJECT                                             AGENCY    START    FINAL
 Review of the Bureau of Diplomatic Security
 (DS) Iraq Anti-Terrorism Awareness (ATA)
 Training Program Purpose: To provide an
 overall review and summary of the requirements,
 provisions, and costs of the Iraq Anti-Terrorism
 Awareness (ATA) Training Program; goals and
 objectives of the program, what indicators have
                                                     DoS OIG   Feb-11
 been established to measure performance; and
 how DS administers the program to ensure
 performance and costs of the program are meet.
 Assess the status of program records,
 management controls, costs, and value of this
 program to the mission of the Department of
 State.


 Warfare Support
 ONGOING
 PROJECT                                             AGENCY    START    FINAL
 DOD Medical Personnel Requirements for
 Contingency Operations (351393). DOD's
 military medical personnel are needed to support
 combat contingency operations to treat injured
 military personnel and save lives. Key Questions:
                                                      GAO      Aug-09
 In support of operations in Iraq and Afghanistan,
 to what extent has DOD (1) assessed its need for
 military medical personnel, and (2) addressed
 challenges in filling military medical personnel
 requirements? (DCM)




Iraq
                                              60
Iraq



 PROJECT                                                  AGENCY     START    FINAL
 DoD Countermine and Improvised Explosive
 Device Defeat Systems Contracts Interrogation
 Arm (D2010-D000AE-0139.000). This project is
 one in a series of reviews to address whether DoD
 procurement efforts for countermine and
 improvised explosive device defeat systems used
 in Iraq and Afghanistan were developed,
 awarded, and managed in accordance with
 Federal and Defense acquisition regulations.              DoD IG    Jan-10   May-11
 Objective: For this specific project, determine
 whether the Joint Improvised Explosive Device
 Defeat Organization (JIEDDO) and Army
 procurement efforts for the Interrogation Arm
 used on Husky and RG-31 vehicles in Iraq and
 Afghanistan were developed, contracted, and
 managed in accordance with Federal and Defense
 acquisition regulations. (MC)
 Marine Corps Individual Augmentee
 Integration Process (N2010-NFO000-
 0124.000). Objective: To verify that Marine
 Corps Individual Augmentees (IAs) are receiving         NAVAUDSVC   Feb-10   Apr-11
 the support needed throughout the deployment
 cycle to reintegrate with family, community, and
 employers. (MC)
 Drawdown from Iraq (351475). Key Questions:
 (1) To what extent is DOD able to efficiently
 drawdown materiel from Iraq and close bases in
 Iraq in accordance with established goals and
 timelines? (2) To what extent will factors (i.e., the
 build-up in Afghanistan, resetting the U.S. force,
 Iraqi domestic politics, etc.) impact the efficient        GAO      Apr-10
 drawdown of U.S. forces in accordance with
 established timelines and goals, and the
 department’s ability to effectively transition to
 the Final phase of the drawdown which is
 scheduled to begin on September 1, 2010?
 (DCM)
(MC) = project impacts Multiple Countries




Iraq
                                                 61
Iraq



 PROJECT                                               AGENCY     START    FINAL
 Post-Deployment Health Reassessment
 Program Management (N2010-NFO000-
 0040.000). Objective: To verify that the Navy is
                                                      NAVAUDSVC   Jul-10   May-11
 effectively implementing and managing the Post-
 Deployment Health Reassessment Program.
 (MC)
 Bulk Fuel Operations in Iraq (A-2010-ALL-
 0541.000). Objective: Determine if there are
 sufficient processes and procedures for efficient       AAA      Jul-10   Jul-11
 throughput of bulk fuels from theater delivery to
 retail point of issue in Iraq.
 Contracting for Force Protection for U.S.
 Installations in Iraq (D2011-D000JB-
 0098.000). Objective: Determine whether DoD is
 adequately administering and overseeing private
 security contracts in Iraq in response to the          DoD IG    Dec-10   Aug-11
 drawdown of U.S. forces. Specifically, we plan to
 evaluate support requirements in contracts and
 related security control measures and procedures
 for access to U.S. military installations in Iraq.
  Army's Equipping Strategies to Reset
 Equipment Returning from Iraq (351431)
 Since 2007, the Army has spent about $54 billion
 for reset - the repair, recapitalization, or
 replacement of equipment and is expecting to
 retrograde additional amounts of equipment for          GAO      Jun-11
 reset as a result of the draw down of U.S. forces
 from Iraq. (1) To what extent does the Army
 prioritize equipment for reset? (2) To what extent
 are the annual depot reset requirements consistent
 with budget requests?
(MC) = project impacts Multiple Countries




Iraq
                                               62
Iraq



 Accountability and Maintenance of Equipment
 PLANNED
 PROJECT                                             AGENCY      START    FINAL
 Implementation of the Base Closure Process in
 Iraq; Disposition of Government Furnished
 Property. Objective: Determine whether DoD is
 effectively managing the disposition of
 Government Furnished Property in accordance
 with established drawdown timelines.
 Specifically, we will determine whether excess
 Government Furnished Property has been reduced
                                                      DoD IG     Mar-11   May-11
 in line with the established force structure and
 basing footprint as of the end of combat
 operations. We will also determine whether
 management took adequate corrective actions on
 recommendations made in our previous two
 audits on the “Controls Over the Accountability”
 and “Disposition of Government Furnished
 Property in Iraq.”
 Retrograde Operations in Southwest Asia -
 Class V Ammunition (A-2011-ALL-0105.000).
 Objectives: (1) Determine if sufficient processes
 and procedures were in place to properly              AAA       Mar-11
 retrograde ammunition from Iraq. (2) Determine
 if sufficient accountability and visibility were
 maintained over ammunition.


 Contract Management
 PLANNED
 PROJECT                                             AGENCY      START    FINAL
 Audit of USAID/Iraq’s Contracting Process
 Objectives: Is USAID/Iraq following FAR
 procurement procedures to award contracts? Did
 USAID/Iraq closeout awards in accordance with
 FAR requirements? How did USAID/Iraq                USAID OIG   Apr-11   Aug-11
 implement the President’s Initiative for federal
 agencies to improve the effectiveness of their
 acquisition practices and the results achieved
 from their government contracts?




Iraq
                                              63
Iraq



 PROJECT                                              AGENCY    START    FINAL
 Controls Over Contractor Demobilization in
 Iraq. Objective: Evaluate the controls over
 contractor demobilization in conjunction with the
 withdrawal of U.S. Forces from Iraq.
 Specifically, we will evaluate the process and
                                                      DoD IG    Apr-11   Sep-11
 methodology used to ensure that contractors have
 valid plans for employee demobilization and are
 implementing those plans in accordance with
 contract requirements and other applicable
 guidance.
 MERO: Review of the Embassy Baghdad Air
 Wing Operations in Iraq (Contract
 Evaluation) Purpose: To review and evaluate the
 procurement process to include the methods for
 determining the contract requirements and the
 contract award decisions, review the funding
 sources to determine allowable, allocable and
 reasonableness of costs claimed by the contractor,   DoS OIG   Jun-11
 and evaluate the Department’s review process for
 timely adjudication of invoicing and payment.
 (Note – there may be multiple separate
 evaluations based on the number of contractors
 who are may be awarded different aviation
 contracts or task orders (TOs) within Iraq to
 accomplish this mission.).
 Audit of the Status of DoD's Theater Wide
 Internal Security Services contracts (Project
 1008). Objective: to assess DoD's oversight of
 TWISS contractors, to include an examination of
                                                       SIGIR             Apr-11
 the process used by DoD personnel to certify
 contractor invoices. This audit may result in more
 than one report and the objectives could be
 modified over time.




Iraq
                                               64
Iraq



 Cross Cutting
 PLANNED
 PROJECT                                                  AGENCY     START    FINAL
 Review of Major U.S. Government Funded
 Infrastructure Projects in Iraq/Electricity
 Sector. The objectives of this evaluation will be
 to determine (1) the status of selected projects in
                                                           SIGIR
 the electricity sector, (2) the contribution of these
 projects to U.S. strategic objectives, and (3) the
 views of the local Iraqi population regarding
 these projects.


 Funds Control
 PLANNED
 PROJECT                                                  AGENCY     START    FINAL
 Marine Reserve Mobilization Orders (N2011-
 NMC000-0105.000). To verify that internal
 controls for the issuance and payment of Marine
 Reserve Mobilization Orders are in accordance           NAVAUDSVC   Jan-11   Oct-11
 with the DOD directives for mobilization, Joint
 Federal Travel Regulations (JFTR), and the
 Financial Management Regulation (FMR). (MC)
 (MC) = project impacts Multiple Countries


 Government Capacity Building
 PLANNED
 PROJECT                                                  AGENCY     START    FINAL
 Audit of USAID/Iraq’s Elections
 Administration Support Program Objective:
 Has USAID/Iraq’s Elections Administration
                                                         USAID OIG   Dec-10   Apr-11
 Support Program increased professional and
 institutional capacity over the election cycle, thus
 requiring less international assistance?

 Audit of USAID/Iraq’s Legislative
 Strengthening Program Objective: Did
 USAID/Iraq’s Legislative Strengthening program          USAID OIG   Dec-10   Apr-11
 improve the sustainability of democratic
 governance in Iraq?




Iraq
                                                  65
Iraq



 Human Rights
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 Review of USAID/Iraq’s Contractors
 Compliance with the Trafficking Victims
 Protection Reauthorization Act of 2008
 Objective: The review will determine if (1)
 USAID/Iraq and its contractors established            USAID OIG   Oct-10   Feb-11
 sufficient controls to prevent trafficking of
 persons, and (2) USAID/Iraq’s contractors and
 sub-contractors engaged in trafficking of persons’
 practices.
 Audit of USAID/Iraq’s Anti-Corruption
 Activities and Selected Financial Transactions
 of its National Capacity Development Program
 Objectives : Is USAID/Iraq’s Tatweer Program
 achieving a main objective of enhancing the anti
                                                       USAID OIG   Dec-10   Apr-11
 corruption efforts of the Government of Iraq
 while building public confidence by engaging the
 local population in anti-corruption activities? Are
 selected Tatweer program financial transactions
 supported and eligible?


 Other
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 Audit of the Sustainability of Selected
 USAID/Iraq-Funded Information Technology
 Systems Objective: Are past USAID/Iraq-funded         USAID OIG   Apr-11   Aug-11
 information technology activities currently used
 as intended?




Iraq
                                                66
Iraq



 Physical Security & Personnel Security
 PLANNED
 PROJECT                                           AGENCY    START    FINAL
 MERO: Review of Emergency Action Plan
 (EAP) of Embassies Baghdad, Kabul, and
 Islamabad (Program Evaluation). Purpose: To
 evaluate and assess the current status and
 effectiveness of the Emergency Action Plans for   DoS OIG   Jun-11
 Embassies Baghdad, Kabul, and Islamabad to
 determine the reasonableness and their level of
 coordination and cooperation with the military
 commanders in-country. (MC)


 Training & Equipping National Security Forces
 PLANNED
 PROJECT                                           AGENCY    START    FINAL
 U.S. Efforts to Develop the Logistics
 Sustainment Capability of the Iraqi Security
 Forces. The DoD IG will evaluate the              DoDIG     Mar-11   Oct-11
 effectiveness of efforts to ensure logistical
 sustainability for the Iraqi Security Forces.


 Warfare Support
 PLANNED
 PROJECT                                           AGENCY    START    FINAL
 DoD Countermine and Improvised Explosive
 Device Defeat Systems Contracts-Vehicle
 Optical Sensor System (VOSS). Objective:
 Determine whether the Joint Improvised
 Explosive Device Defeat Organization and
 Army’s procurement efforts for the Vehicle
                                                   DoD IG    Mar-11
 Optical Sensor System used on RG-31 and Joint
 Explosive Ordnance Disposal Rapid Response
 Vehicle in Iraq and Afghanistan were developed,
 contracted, and managed in accordance with
 Federal and Defense acquisition regulations.
 (MC)
(MC) = project impacts Multiple Countries




Iraq
                                             67
Iraq



 PROJECT                                               AGENCY     START    FINAL
 Navy Individual Augmentee Reintegration
 Process (N2011-NFO000-0062.000). To verify
 that Navy Individual Augmentees (IAs) are
                                                      NAVAUDSVC   May-11
 receiving the support needed throughout the
 deployment cycle to reintegrate with family,
 community, and employers. (MC)
 Periodic Health Assessment (PHA)
 Requirements for Navy Reserve Accessions
 (N2011-NFO000-0059.000). To verify that the
 Navy Reserve Forces Command (NAVRESFOR)              NAVAUDSVC   Jun-11
 is efficiently and effectively completing Periodic
 Health Assessment (PHA) requirements for Navy
 Reserve accessions. (MC)
 Navy Safe Harbor Non-Medical Care
 Management (N2011-NFO000-0051.000). To
 verify that the Navy Safe Harbor (SH) provides
 effective Non-Medical Care Management                NAVAUDSVC   Jul-11
 (NMCM) to Wounded, Ill, and Injured (WII)
 Sailors, their families, and caregivers throughout
 the recovery phase. (MC)
(MC) = project impacts Multiple Countries




Iraq
                                               68
Pakistan



PAKISTAN


 Other
 ONGOING
 PROJECT                                          AGENCY      START    FINAL
 Audit of USAID/Pakistan's Federally
 Administered Tribal Areas Livelihood
 Development Program as Implemented by
 CHF International Objective: Is
                                                  USAID OIG   May-10   Dec-10
 USAID/Pakistan’s Federally Administered Tribal
 Areas Livelihood Development Program as
 implemented by CHF International achieving its
 main goals?
 Audit of USAID/Pakistan’s Federally
 Administered Tribal Areas Livelihood
 Development Program as Implemented by
 Academy for Education Development
 Objective: Is USAID/Pakistan’s Federally         USAID OIG   May-10   Dec-10
 Administered Tribal Areas Livelihood
 Development Program as implemented by
 Academy for Educational Development achieving
 its main goals?
 Audit of USAID/Pakistan's Flood Relief
 Efforts as Administered by Local
 Nongovernmental Organizations Objective:
                                                  USAID OIG   Sep-10   Jan-11
 Are USAID/Pakistan's flood relief efforts as
 administered by local nongovernmental
 organizations achieving their targets?




Pakistan
                                           69
Pakistan



 Training & Equipping National Security Forces
 ONGOING
 PROJECT                                               AGENCY    START    FINAL
 MERO: Review of the Bureau of Diplomatic
 Security (DS) Pakistan Anti-Terrorism
 Awareness (ATA) Training Program
 (Performance Evaluation). Purpose: To provide
 an overall review and summary of the
 requirements, provisions, and costs of the
 Pakistan Anti-Terrorism Awareness (ATA)
 Training Program; goals and objectives of the         DoS OIG   Feb-11   Sep-11
 program, what indicators have been established to
 measure performance; and how DS administers
 the program to ensure performance and costs of
 the program are meet. Assess the status of
 program records, management controls, costs,
 and value of this program to the mission of the
 Department of State.

 Warfare Support
 ONGOING
 PROJECT                                               AGENCY    START    FINAL
 US Security Assistance to Pakistan (320684).
 The Security Development Plan, implemented by
 the Department of Defense, is a key U.S.
 initiative to enhance Pakistan's counterinsurgency
 capabilities in the tribal and frontier areas
 bordering Afghanistan. About $500 million has
 been allocated for this initiative to date with
 efforts underway to greatly enhance future U.S.
                                                        GAO      Jun-09
 assistance to Pakistan. Key Questions: (1) How
 much funding has been appropriated, obligated,
 and expended under the plan? (2) What are the
 plan's current and future objectives, and what has
 been accomplished to date? (3) What
 management and oversight controls are in place
 to ensure that this assistance is used as intended?
 (IAT)




Pakistan
                                                70
Pakistan



 PROJECT                                               AGENCY   START    FINAL
 Pakistan Assistance Strategy Report. (320777)
 The Enhanced Partnership with Pakistan Act
 requires GAO to (1) review the Pakistan
 Assistance Strategy Report, (2) make
 recommendations relating to any actions needed
 to improve the efficiency and effectiveness of
 U.S. efforts to meet the objectives of the Act, (3)
                                                        GAO     Apr-10
 provide a detailed description of the expenditures
 made by Pakistan pursuant to grant assistance
 under section 23 of the Arms Export Control Act
 (22 U.S.C. 2763; relating to the Foreign Military
 Financing program), and (4) assess the impact of
 the assistance on the security and stability of
 Pakistan. (IAT)
 Pakistan’s Anti-terror Efforts (320790). The
 Enhanced Partnership with Pakistan Act of 2009
 prohibits military assistance and arms transfers to
 Pakistan in fiscal years 2011-2014 unless the
 Secretary of State, under the direction of the
 President, certifies for Congress that Pakistan is
 making significant progress in combating terrorist
 groups and Pakistan's security forces are not
 subverting the country's political and judicial
 processes. The Act requires GAO to
 independently assess this certification not later      GAO     Jul-10
 than 120 days after the date the Secretary of State
 makes the certification. GAO will assess the
 extent to which (1) officials assessed and
 disclosed the reliability of evidence used to
 support the certification; (2) conclusions in the
 certification are consistent with the views of
 experts, academia, and other US agencies, or
 differences are explained; and (3) there are gaps
 in the issues considered in making the
 certification. (IAT)




Pakistan
                                                71
Pakistan



 PROJECT                                               AGENCY      START    FINAL
 Pakistan Nuclear Networks (320783). The
 Enhanced Partnership with Pakistan Act of 2009
 prohibits military assistance and arms transfers to
 Pakistan in fiscal years 2011-2014 unless the
 Secretary of State, under the direction of the
 President, certifies for Congress that the
 Government of Pakistan is continuing to
 cooperate with the United States in efforts to
 dismantle supplier networks relating to the
 acquisition of nuclear weapons-related materials,
 such as providing relevant information from or
 direct access to Pakistani nationals associated
                                                         GAO       Jul-10
 with such networks. The Act requires GAO to
 independently assess this certification not later
 than 120 days after the date the Secretary of State
 makes the certification. GAO will assess the
 extent to which (1) officials assessed and
 disclosed the reliability of evidence used to
 support the certification; (2) conclusions in the
 certification are consistent with the views of
 experts, academia, and other US agencies, or
 differences are explained; and (3) there are gaps
 in the issues considered in making the
 certification. (IAT)

 Education & Healthcare
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 Audit of USAID/Pakistan's Pre-Service
 Teacher Education Program Objective: Is the
 USAID/Pakistan Pre-Service Teacher Education          USAID OIG   Nov-10   Mar-11
 Program helping teachers improve their
 professional qualifications?
 Audit of USAID/Pakistan’s Emergency Cash
 Transfer Program – University and Technical
 Education Component Objective: Are the funds
 provided to the Government of Pakistan under
                                                       USAID OIG   Jan-11   May-11
 USAID/Pakistan’s Emergency Cash Transfer
 Program for the University and Technical
 Education component being used for their
 intended purpose of providing budget support?




Pakistan
                                                72
Pakistan



 Funds Control
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 MERO: Review of Internal Management
 Controls of Funds Provided to Embassy
 Islamabad (Program Evaluation). Purpose: To
 determine whether specific internal control
 procedures have been properly designed and put
                                                        DoS OIG    Mar-11   Sep-11
 in place for all the program funds to include
 procedures for planning, organizing, directing,
 and controlling program operations, and the
 system put in place for measuring, reporting, and
 monitoring program performance.
 Review of Internal Management Controls of
 Funds Provided to Embassy Islamabad
 Purpose: To determine whether specific internal
 control procedures have been properly designed
 and put in place for all the program funds to          DoS OIG
 include procedures for planning, organizing,
 directing, and controlling program operations,
 and the system put in place for measuring,
 reporting, and monitoring program performance.

 Government Capacity Building
 PLANNED
 PROJECT                                               AGENCY      START    FINAL
 Audit of USAID/Pakistan's Pre-award
 Assessment Process of Host Government and
 Local Organizations in Pakistan Objective:
 Did USAID/Pakistan’s pre-award assessment
 process provide a reasonable basis of identifying     USAID OIG   Nov-10   Mar-11
 significant vulnerabilities that could result in
 waste or misuse of U.S. Government resources
 and if significant vulnerabilities were identified,
 were they corrected in a timely fashion?




Pakistan
                                                 73
Pakistan



 Infrastructure
 PLANNED
 PROJECT                                              AGENCY      START    FINAL
 Audit of USAID/Pakistan’s Road
 Rehabilitation and Reconstruction Activities
 Under the Quick Impact Projects in South
 Waziristan Objective: Is USAID/Pakistan’s
                                                      USAID OIG   Oct-10   Feb-11
 road rehabilitation and reconstruction activities
 under the Quick Impact Projects in South
 Waziristan achieving its main goal of rebuilding
 selected roads?
 Audit of USAID/Pakistan’s Pakistan Firms
 Project Objective: Is USAID/Pakistan’s
 Pakistan FIRMS Project achieving its main goals      USAID OIG   Feb-11   Jun-11
 of strengthening the business sector and
 improving productivity and quality?
 Audit of USAID/Pakistan’s Community
 Rehabilitation Infrastructure Support
 Program (CRISP) Objective: Is
 USAID/Pakistan’s Community Rehabilitation
 Infrastructure Support Program (CRISP)
 achieving its main goal of constructing and          USAID OIG   Apr-11   Aug-11
 renovating community infrastructure to improve
 the delivery of basic human services such as
 education, healthcare, water supply, sanitation,
 electricity, and transportation as well as promote
 economic growth in rural areas of Pakistan?




Pakistan
                                                74
Pakistan




 Physical Security & Personnel Security
 PLANNED
 PROJECT                                             AGENCY    START    FINAL
 Review of U. S. Mission Pakistan Local
 Security Guard Programs
 Purpose: To provide an overall review and
 summary of the requirements and provisions of
 the Islamabad Embassy Security Force contract;
 objectives of the contracts and task orders, what
 indicators have been established to measure
                                                     DoS OIG   Mar-11   Oct-11
 performance; and how the Department
 administered the contract to oversee the
 contractor’s performance and costs of the
 contract. Assess the status of contract records,
 management controls, cost, and value of this
 contract to the mission of the US Department of
 State.
 MERO: Review of Emergency Action Plan
 (EAP) of Embassies Baghdad, Kabul, and
 Islamabad (Program Evaluation). Purpose: To
 evaluate and assess the current status and
 effectiveness of the Emergency Action Plans for     DoS OIG   Jun-11
 Embassies Baghdad, Kabul, and Islamabad to
 determine the reasonableness and their level of
 coordination and cooperation with the military
 commanders in-country. (MC)

 (MC) = project impacts Multiple Countries




Pakistan
                                                75
Pakistan



 Reconstruction
 PLANNED
 PROJECT                                             AGENCY      START    FINAL
 Audit of USAID/Pakistan’s Energy Efficiency
 and Capacity Program Objective: Is
 USAID/Pakistan’s Energy Efficiency and
 Capacity Program achieving its main goals of
                                                     USAID OIG   Jan-11   May-11
 promoting energy efficiency and conservation
 practices to reduce demand and building the
 capacity of public sector organizations to better
 address the needs of the energy sector?




Pakistan
                                               76
Kuwait



KUWAIT


Accountability and Maintenance of Equipment
ONGOING
PROJECT                                             AGENCY   START    FINAL
Night Vision Equipment Management (F2010-
FD3000-0034). Objective: Determine whether
Air Force personnel effectively manage night
vision equipment. Specifically, determine
whether Air Force personnel (a) accurately
                                                     AFAA    Mar-10   Feb-11
determine night vision equipment requirements
and correctly maintain associated authorizations
to meet anticipated mission needs, and (b)
properly account for on-hand night vision
equipment assets. (MC)
Small Arms and Light Weapons Management
(F2010-FC4000-0028). Objective: Assess if
property custodians properly manage small arms
and light weapons. Specifically, assess if
                                                     AFAA    Jul-10   Jul-11
custodians accurately account for items, promptly
report on-hand discrepancies, adequately store
and protect items, and appropriately deploy small
arms and weapons. (MC)
Aircraft Fuels Servicing Equipment (F2010-
FC4000-0033). Objective: Determine whether
aircraft fuels servicing equipment is effectively
managed. Specifically, evaluate whether              AFAA    Aug-10   Aug-11
personnel properly identify and support refueling
truck and support equipment requirements, and
accurately account for these items. (MC)
Technical Order Management (F2011-
FC2000-0025). Objective: Evaluate whether Air
Force personnel effectively manage Technical
Orders (TOs) and Time Compliance Technical
Orders (TCTOs) in Southwest Asia. Specifically,      AFAA    Feb-11   Dec-11
determine if personnel effectively distribute
Technical Orders and TCTOs and properly
implement support equipment and parts TCTOs.
[TDY footprint in AOR Jun - Aug 2011] (MC)
 (MC) = project impacts Multiple Countries




Kuwait
                                             77
Kuwait



Contract Management
ONGOING
PROJECT                                               AGENCY   START    FINAL
Contracts Supporting Base Operations in
Kuwait (D2009-D000AS-0266.000). Objective:
Determine whether DoD properly managed and
administered contracts supporting base operations
in Kuwait. Specifically, DoD OIG will determine
                                                      DoD IG   Jul-09   Jun-11
whether the contract management and
administration complied with Federal and DoD
policies. Report D-2010-085 addresses Kuwait
contractors working in sensitive positions without
security clearances or Common Access Cards.
Follow-Up Audit - U. S. Air Forces Central
(AFCENT) Service Contract Management
(F2010-FD3000-0430). Objective: Evaluate
management actions taken in response to Report
of Audit F2007-0005-FD3000, CENTAF
                                                       AFAA    Jul-10   Jun-11
Deployed Locations Services Contract
Management, 20 April 2007. Specifically, assess
whether AFCENT personnel properly validate
contract requirements and adequately monitor
contractor performance. (MC)


Education & Healthcare
ONGOING
PROJECT                                               AGENCY   START    FINAL
Medical Aspects of Civilian Deployments
(F2011-FD2000-0289). Objective: Determine
whether the Air Force Medical Service (AFMS)
effectively managed medical aspects of civilian
deployments. Specifically, determine whether
officials provided (a) appropriate pre- and post-
                                                       AFAA    Jan-11   Dec-11
deployment screening for DoD civilians and
contractors and (b) proper medical support to
deployed civilians. Further, determine whether
officials effectively deployed civilians to augment
the AFMS expeditionary force. [TDY footprint
in AOR Jun - Aug 2011] (MC)
(MC) = project impacts Multiple Countries




Kuwait
                                               78
Kuwait



Funds Control
ONGOING
PROJECT                                               AGENCY   START    FINAL
Controls Over Vendor Payments - Southwest
Asia (Phase II) (A-2009-ALL-0118.000).
Objective: Determine if the Army has effective
                                                       AAA     Jan-09   Jun-11
controls to ensure the accuracy of vendor
payments for contingency operations in
Southwest Asia.
Patriot Express (F2010-FC4000-0026).
Objective: Determine if Air Force personnel
properly utilized Patriot Express transportation.
Specifically, determine if personnel use Patriot       AFAA    Feb-10   Feb-11
Express travel when available and properly
justify purchasing commercial airline tickets
instead of utilizing the Patriot Express. (MC)
Internal Controls and Data Reliability in the
Deployable Disbursing System (D2007-
D000FL-0252.000) A series of reports is planned
for this project. Objective: Determine whether
the internal controls over transactions processed
through the Deployable Disbursing System are
adequate to ensure the reliability of the data
processed. The audit series will include financial
information processed by disbursing stations
supporting the Global War on Terror and will
also follow up on our “Internal Controls Over
                                                      DoD IG   Aug-10   Apr-11
Out-of-Country Payments,” (Project No. D2006-
D000FL-0208.000). The first report, D-2009-054,
addresses U.S. Marine Corps (USMC) processed
disbursement transactions that contain classified
information into unclassified DoD systems. D-
2010-037 addresses internal controls of USMC
commercial and miscellaneous payments
processed through the Deployable Disbursing
System. D-2010-038, (CLASSIFIED REPORT)
addresses classified information in an unclassified
DoD system. (MC)
 (MC) = project impacts Multiple Countries




Kuwait
                                               79
Kuwait



Infrastructure
ONGOING
PROJECT                                            AGENCY   START    FINAL


United States Air Forces Central (AFCENT)
AOR Utilities (F2011-FD1000-0077). Objective:
Determine whether AFCENT Civil Engineers
effectively and efficiently manage utilities at
                                                    AFAA    Nov-10   Jan-12
AFCENT AOR locations. Specifically,
determine if civil engineers provide adequate,
safe, and cost-effective utility service. [TDY
footprint in AOR Jun-Aug 2011] (MC)




Physical Security & Personnel Security
ONGOING
PROJECT                                            AGENCY   START    FINAL
U. S. Air Forces Central (AFCENT) Deployed
Locations Computer Network Controls
(F2010-FB4000-0614). Objective: Determine
whether AFCENT personnel effectively
controlled access to the networks in the AFCENT
Area of Responsibility. Specifically, determine
                                                    AFAA    Jul-10   May-11
whether AFCENT personnel properly (a) identify
contractors and foreign nationals with access to
AFCENT networks, (b) authorize network access
for contractors and foreign nationals, and (c)
establish network user accounts for contractors
and foreign nationals. (MC)
 (MC) = project impacts Multiple Countries




Kuwait
                                            80
Kuwait



Warfare Support
ONGOING
PROJECT                                             AGENCY   START    FINAL
Management Controls Over Payments for
Overseas Contingency Operations
Transportation- ARCENT (A-2011-ALL-
0087.001). Objective: Does the Army have
                                                     AAA     Oct-10   Aug-11
sufficient management controls to ensure
ARCENT Overseas Contingency Operations
funds are appropriately used for transportation
requirements?
Management Controls over Department of
Defense Activity Address Codes, U.S. Army
Central Command (A-2011-ALL-0087.000).
Objective: Determine if U.S. Army Central
                                                     AAA              Jul-11
Command's management controls over the
assignment and use of DODAACs are sufficient
to ensure appropriate use of overseas contingency
operations funds.

Accountability and Maintenance of Equipment
PLANNED
PROJECT                                             AGENCY   START    FINAL
Property Accountability in Kuwait (A-2011-
ALL-0194.000). Objectives: 1) Did the Army
effectively perform inventories to enhance
visibility by reporting property on hand and
identifying and recording assets not on the
property book or Stock Record Account? 2) Did
                                                     AAA     Mar-11   Sep-11
the Army use the results of the inventories to
effectively identify and report excesses, and
identify and requisition shortages? 3) did
commanders perform timely evaluations of
supply operations and provide actionable
recommendations to Army leaders?




Kuwait
                                             81
Kuwait



PROJECT                                              AGENCY   START    FINAL
Management of Theater Provided Equipment
Refurbishment (TPER) Program in Kuwait.
Objective: Evaluate whether DoD is effectively
and efficiently managing the Theatre Provided
Equipment Refurbishment Program in Kuwait.
Specifically, to determine whether Theatre
                                                     DoD IG   Mar-11   Sep-11
Property Equipment is received, inspected, coded,
and repaired in accordance with applicable
guidance. We will also determine whether DoD
is conducting appropriate oversight of the Theatre
Provided Equipment Refurbishment contracts in
accordance with Federal and DoD policies.

Services
PLANNED
PROJECT                                              AGENCY   START    FINAL
Logistics Civil Augmentation Program
(LOGCAP) IV Operations - Kuwait (A-2011-
ALL-0095.000). Objective: Determine if services
                                                      AAA     Aug-11
awarded under LOGCAP IV in Kuwait were
managed in a reasonable and cost-effective
manner.


Warfare Support
PLANNED
PROJECT                                              AGENCY   START    FINAL
Army Prepositioned Stocks (APS-5),
Requirement Determination Processes (A-
2011-ALL-0094.000). Objectives: Determine
whether (1) the requirements for Army
Prepositioned Stock requirements, including
those for Class IX items, were supported by           AAA     Jun-11   Feb-12
strategic plans and consistent with established
mission sets and operational projects. 2) Army
Prepositioned Stock items, including Class I and
VIII items, were properly managed and
maintained so that readiness goals were achieved.




Kuwait
                                              82
Qatar


QATAR 


Accountability and Maintenance of Equipment
ONGOING
PROJECT                                             AGENCY   START    FINAL
Night Vision Equipment Management (F2010-
FD3000-0034). Objective: Determine whether
Air Force personnel effectively manage night
vision equipment. Specifically, determine
whether Air Force personnel (a) accurately
                                                     AFAA    Mar-10   Feb-11
determine night vision equipment requirements
and correctly maintain associated authorizations
to meet anticipated mission needs, and (b)
properly account for on-hand night vision
equipment assets. (MC)
Small Arms and Light Weapons Management
(F2010-FC4000-0028). Objective: Assess if
property custodians properly manage small arms
and light weapons. Specifically, assess if
                                                     AFAA    Jul-10   Jul-11
custodians accurately account for items, promptly
report on-hand discrepancies, adequately store
and protect items, and appropriately deploy small
arms and weapons. (MC)
Aircraft Fuels Servicing Equipment (F2010-
FC4000-0033). Objective: Determine whether
aircraft fuels servicing equipment is effectively
managed. Specifically, evaluate whether              AFAA    Aug-10   Aug-11
personnel properly identify and support refueling
truck and support equipment requirements, and
accurately account for these items. (MC)
Technical Order Management (F2011-
FC2000-0025). Objective: Evaluate whether Air
Force personnel effectively manage Technical
Orders (TOs) and Time Compliance Technical
Orders (TCTOs) in Southwest Asia. Specifically,      AFAA    Feb-11   Dec-11
determine if personnel effectively distribute
Technical Orders and TCTOs and properly
implement support equipment and parts TCTOs.
[TDY footprint in AOR Jun - Aug 2011] (MC)
(MC) = project impacts Multiple Countries




Qatar
                                             83
Qatar



Contract Management
ONGOING
PROJECT                                             AGENCY   START    FINAL
Army and Navy Small Boats Maintenance
Contracts (D2009-D000AS-0163.000).
Objective: Determine whether contracts
providing ship repair and maintenance to the U.S.
Army operations in Bahrain and Navy operations
in Bahrain, Qatar, and United Arab Emirates were
properly managed and administered. Specifically,
review competition, contract type, and contract     DoD IG   Mar-09   Feb-11
oversight. Report D-2010-005 addresses an
information security issue. Subsequent reports
will address the audit objective. Report D-2010-
064 addresses competition, price reasonableness
determinations, and quality assurance controls in
contracts for Army vessels maintenance in
Kuwait.

Follow-Up Audit - U. S. Air Forces Central
(AFCENT) Service Contract Management
(F2010-FD3000-0430). Objective: Evaluate
management actions taken in response to Report
of Audit F2007-0005-FD3000, CENTAF
                                                     AFAA    Jul-10   Jun-11
Deployed Locations Services Contract
Management, 20 April 2007. Specifically, assess
whether AFCENT personnel properly validate
contract requirements and adequately monitor
contractor performance. (MC)

(MC) = project impacts Multiple Countries




Qatar
                                             84
Qatar



Education & Healthcare
ONGOING
PROJECT                                               AGENCY   START    FINAL
Medical Aspects of Civilian Deployments
(F2011-FD2000-0289). Objective: Determine
whether the Air Force Medical Service (AFMS)
effectively managed medical aspects of civilian
deployments. Specifically, determine whether
officials provided (a) appropriate pre- and post-
                                                       AFAA    Jan-11   Dec-11
deployment screening for DoD civilians and
contractors and (b) proper medical support to
deployed civilians. Further, determine whether
officials effectively deployed civilians to augment
the AFMS expeditionary force. [TDY footprint
in AOR Jun - Aug 2011] (MC)
 (MC) = project impacts Multiple Countries

Funds Control
ONGOING
PROJECT                                               AGENCY   START    FINAL
Patriot Express (F2010-FC4000-0026).
Objective: Determine if Air Force personnel
properly utilized Patriot Express transportation.
Specifically, determine if personnel use Patriot       AFAA    Feb-10   Feb-11
Express travel when available and properly
justify purchasing commercial airline tickets
instead of utilizing the Patriot Express.




Qatar
                                               85
Qatar



Infrastructure
ONGOING
PROJECT                                             AGENCY   START    FINAL
United States Air Forces Central (AFCENT)
Area Of Responsibility Construction Planning
(F2011-FD1000-0078). Objective: Determine
whether AFCENT Civil Engineers coordinate
MILCON projects with the proper command at
joint bases to facilitate the Base Master Plan.
Specifically, determine whether Air Force
personnel (a) identified the proper command,         AFAA    Oct-10   Mar-11
agency, or joint structure to oversee the joing
base master planning effort, (b) identified and
analyzed barriers to proper and adequate master
planning, and (c) recommend the optimal
alignment of responsibility and authority for the
joint base operating support integrator (BOS-I)
command structure. (MC)
United States Air Forces Central (AFCENT)
AOR Utilities (F2011-FD1000-0077). Objective:
Determine whether AFCENT Civil Engineers
effectively and efficiently manage utilities at
                                                     AFAA    Nov-10   Jan-12
AFCENT AOR locations. Specifically,
determine if civil engineers provide adequate,
safe, and cost-effective utility service. [TDY
footprint in AOR Jun-Aug 2011] (MC)
(MC) = project impacts Multiple Countries




Qatar
                                             86
Qatar



Physical Security & Personnel Security
ONGOING
PROJECT                                            AGENCY   START    FINAL
U. S. Air Forces Central (AFCENT) Deployed
Locations Computer Network Controls
(F2010-FB4000-0614). Objective: Determine
whether AFCENT personnel effectively
controlled access to the networks in the AFCENT
Area of Responsibility. Specifically, determine
                                                    AFAA    Jul-10   May-11
whether AFCENT personnel properly (a) identify
contractors and foreign nationals with access to
AFCENT networks, (b) authorize network access
for contractors and foreign nationals, and (c)
establish network user accounts for contractors
and foreign nationals. (MC)


Accountability and Maintenance of Equipment
PLANNED
PROJECT                                            AGENCY   START    FINAL
United States Air Forces Central (AFCENT)
Storage Container Management (F2011-
FD3000-0039). Objective: Evaluate whether Air
Force personnel effectively manage AOR storage
container requirements and adequately account       AFAA    Jan-11   Dec-11
for, control, and maintain containers. Further,
determine whether the Air Force requires
container contents for mission operations. [TDY
footprint in AOR Jun-Aug 2011] (MC)
(MC) = project impacts Multiple Countries




Qatar
                                            87
Qatar



 Services
 PLANNED
 PROJECT                                             AGENCY   START    FINAL

 Contract Administration of the Prime Vendor
 Program for Subsistence in Support of
 Operation Enduring Freedom. Objective:
 Evaluate the prime vendor’s program for
 subsistence in support of operation enduring
                                                     DoD IG   Aug-11
 freedom. Specifically, to review whether the
 assignment of contracting officer representatives
 and execution of the quality assurance
 surveillance plan and procedures were effective
 for assessing contractor performance. (MC)

(MC) = project impacts Multiple Countries




Qatar
                                               88
All Other Countries


All Other Countries


 Accountability and Maintenance of Equipment
 ONGOING
 PROJECT                               AGENCY    START    FINAL      COUNTRY
 Aircraft Fuels Servicing
 Equipment (F2010-FC4000-
 0033). Objective: Determine
 whether aircraft fuels servicing
                                                                   AFGHANISTAN,
 equipment is effectively managed.
                                                                   IRAQ, KUWAIT,
 Specifically, evaluate whether           AFAA   Aug-10   Aug-11
                                                                   KYRGYZSTAN,
 personnel properly identify and
                                                                      QATAR
 support refueling truck and support
 equipment requirements, and
 accurately account for these items.
 (MC)
(MC) = project impacts Multiple Countries




All Other Countries
                                         89
All Other Countries



 Contract Management
 ONGOING
 PROJECT                                 AGENCY   START    FINAL    COUNTRY
 DoD Body Armor Contracts
 (D2008-D000CD-0256.000). This
 project is the result of a
 Congressional request. Objective:
 Examine the contracts and
 contracting process for body armor
 and related test facilities. Specific
 objectives will include evaluating
 the background and qualifications
 of the contractors, the criteria for
 awarding the contracts, the quality
 assurance process, and any
 relationships that may exist
 between the contractors and             DoD IG   Aug-08   May-11     ALL
 Government officials. Our review
 of the quality assurance process
 will include reviewing the results of
 First Article Testing and Lot
 Acceptance Testing for the body
 armor contracts. Report D-2010-
 029 addresses DoD contractor
 qualification and selection criteria
 for body armor contracts. Report
 D-2011-030 addresses ballistic
 testing and product quality
 surveillance for the Interceptor
 Body Armor-Vest Components.
 Logistics Civil Augmentation
 Program (LOGCAP) III,
 Contract Close-out (A-2009-
 ALC-0093.000). Objective: Did the
 Army have procedures and controls
 in place to effectively close-out the    AAA     Oct-08   Mar-11    CONUS
 Logistics Civil Augmentation
 Program (LOGCAP) III contract to
 ensure proper payment of its
 legitimate liabilities and
 deobligations of unused funds?




All Other Countries
                                            90
All Other Countries



 PROJECT                               AGENCY    START    FINAL      COUNTRY
 Human Capital Issues - Current
 Plans (Reachback Capabilities)
 (A-2010-ALC-0125.003).
 Objective: Did the Army maximize         AAA    Jun-10   May-11      CONUS
 the use of reachback capabilities to
 mitigate contracting personnel
 shortages?
 Expeditionary Contracting Units
 (A-2011-ALC-0170.000).
 Objective: Did the Army take             AAA    Feb-11   Aug-11      GLOBAL
 needed actions to staff and train
 Expeditionary Contracting Units?"
 Follow-Up Audit - U. S. Air
 Forces Central (AFCENT)
 Service Contract Management
 (F2010-FD3000-0430). Objective:
 Evaluate management actions taken
                                                                   IRAQ, KUWAIT,
 in response to Report of Audit
                                                                   KYRGYZSTAN,
 F2007-0005-FD3000, CENTAF
                                          AFAA   Jul-10   Jun-11   QATAR, UNITED
 Deployed Locations Services
                                                                       ARAB
 Contract Management, 20 April
                                                                     EMIRATES
 2007. Specifically, assess whether
 AFCENT personnel properly
 validate contract requirements and
 adequately monitor contractor
 performance. (MC)
(MC) = project impacts Multiple Countries




All Other Countries
                                         91
All Other Countries



 PROJECT                                 AGENCY    START    FINAL     COUNTRY
 Review of the Activities of
 DynCorp under the Bureau of
 International Narcotics and Law
 Enforcement Affairs (INL)
 Security Sector Reform Program
 in Support of the Palestinian
 Authority. (Contract Evaluation).
 Purpose: The primary objectives of
 this review are to determine: (1) the                               PALESTINIAN
                                         DoS OIG   Feb-10   Mar-11
 requirements and provisions of the                                  TERRITORIES
 contract; (2) if contract
 performance measures have been
 established and are being achieved;
 (3) how well INL administers the
 contract to provide proper oversight
 of DynCorp’s performance; and (4)
 whether DynCorp is performing
 effectively.
 Review of the Bureau of
 International Narcotics and Law
 Enforcement Affairs (INL)
 Infrastructure Activities in
 Support of the Palestinian
 Authority (PA) Security Forces
 (Contract Evaluation) Purpose:
 The primary purpose is to
 determine whether INL is
 effectively managing and                                            PALESTINIAN
                                         DoS OIG   Feb-10   Mar-11
 overseeing the construction of                                      TERRITORIES
 National Security Forces training
 camps and garrisons. This review
 will assess whether comprehensive
 independent government cost
 estimates are being performed, the
 effectiveness of the Project
 Implementation Unit to manage the
 construction projects, and whether
 contractors are properly vetted.




All Other Countries
                                            92
All Other Countries



 PROJECT                               AGENCY   START    FINAL    COUNTRY
 Controls and Processes
 Pertaining to the Defense
 Logistics Agency's Procurement
 Automated Contract Evaluation
 System (D2010-D000LD-
 0264.000). Objective: Determine
 whether the Defense Logistics
 Agency (DLA) supply centers
 awarded contracts through the
 Procurement Automated Contract        DoD IG   Aug-10   Aug-11    SWA
 Evaluation System (PACE) to
 suppliers who offered the best
 value, determine whether DLA has
 a process to validate that prices
 were fair and reasonable, and
 determine whether the supply
 centers uniformly applied the
 controls and rules governing PACE
 awards.
 Army Warfighter Field
 Operations Customer Support
 Contract (D2010-D000AS-
 0266.000). Objective: For this
 initial project, determine whether
 Army officials are translating
 mission requirements into
 appropriate contractual instruments
 and are conducting appropriate
                                       DoD IG   Aug-10             SWA
 oversight of the Warfighter FOCUS
 contract in accordance with Federal
 and DoD policies. Specifically, we
 will determine whether contracting
 officials adhered to Federal and
 DoD policies for subcontracting in
 a contingency environment while
 administering the Warfighter
 FOCUS contract.




All Other Countries
                                          93
All Other Countries



 Education & Healthcare
 ONGOING
 PROJECT                                            AGENCY   START FINAL COUNTRY
 Assessment of Wounded Warrior Matters
 (D2010-D00SPO-0209.000). Objective:
 Determine whether the DoD programs for
 the care, management and transition of
                                                    DoD IG   Apr-10   Feb-11   CONUS
 recovering service members wounded
 during deployment in OIF and OEF are
 managed effectively and efficiently (Fort
 Sam Houston Warrior Transition Unit).
 Assessment of Wounded Warrior Matters
 (D2010-D00SPO-0209.001). Objective:
 Determine whether the DoD programs for
 the care, management and transition of
                                                    DoD IG   Apr-10   Mar-11   CONUS
 recovering service members wounded
 during deployment in OIF and OEF are
 managed effectively and efficiently (Fort
 Drum Warrior Transition Unit).
 Assessment of Wounded Warrior Matters
 (D2010-D00SPO-0209.002). Objective:
 Objective: Determine whether the DoD
 programs for the care, management and
 transition of recovering service members           DoD IG   Apr-10   Mar-11   CONUS
 wounded during deployment in OIF and
 OEF are managed effectively and efficiently
 (Camp LeJuene Wounded Warrior
 Battalion).
 Assessment of Wounded Warrior
 Matters. Objective: Determine whether
 the DoD programs for the care, management
 and transition of recovering service
                                                    DoD IG   Apr-10   Jun-11   CONUS
 members wounded during deployment in
 OIF and OEF are managed effectively and
 efficiently (Joint Base Lewis-McChord
 Warrior Transition Unit).




All Other Countries
                                               94
All Other Countries



 PROJECT                                             AGENCY   START FINAL COUNTRY
 Assessment of Wounded Warrior
 Matters. Objective: Determine whether
 the DoD programs for the care, management
 and transition of recovering service
                                                     DoD IG   Apr-10   Sep-11   CONUS
 members wounded during deployment in
 OIF and OEF are managed effectively and
 efficiently (Camp Pendleton Wounded
 Warrior Battalion).
 Assessment of Wounded Warrior
 Matters. Objective: Determine whether
 the DoD programs for the care, management
 and transition of recovering service
                                                     DoD IG   Apr-10   Sep-11   CONUS
 members wounded during deployment in
 OIF and OEF are managed effectively and
 efficiently (Fort Carson Warrior Transition
 Unit).


 Equipment & Property
 ONGOING
 PROJECT                                             AGENCY   START FINAL COUNTRY
 Utilization of Navy Medical Assets
 (N2008-NFO000-0137.000). Objective: To
                                                NAVAUDSVC     Aug-08   Apr-11   OTHER
 verify that Navy medical assets are being
 used effectively.


 Funds Control
 ONGOING
 PROJECT                                             AGENCY   START FINAL COUNTRY
 Fiscal Year 2008 Marine Corps Global
 War on Terror-Related Costs Processed
 through the Standard Accounting,
 Budgeting and Reporting System (D2009-
 D000FG-0183.000). Objective: Determine
 whether the Marine Corps accurately
                                                     DoD IG   Apr-09   Apr-11   GLOBAL
 reported FY 2008 costs related to the Global
 War on Terror. We will review whether
 Marine Corps documentation substantiates
 operation and maintenance obligations
 processed through the Standard Accounting,
 Budgeting and Reporting System.



All Other Countries
                                                95
All Other Countries




 Human Rights
 ONGOING
 PROJECT                                               AGENCY     START FINAL COUNTRY
 Review of the Trafficking in Persons
 (TIP) for the LAVANT Region
 (Performance Evaluation) Purpose:
 Review of selected Department contracts in
 the Middle East Region to evaluate and                                                SYRIA,
 assess the current status and effectiveness of                                       JORDAN,
                                                       DoS OIG    Aug-10   Feb-11
 US contractors complying with full                                                  LEBANON,
 disclosure in recruiting, hiring, and                                                 ISRAEL
 treatment of foreign workers employed by
 US contractors and subcontractors within
 the four countries of the LAVANT Region –
 Syria, Jordan, Lebanon, and Israel.


 Infrastructure
 ONGOING
 PROJECT                                  AGENCY             START    FINAL         COUNTRY
 United States Air Forces Central
 (AFCENT) Area Of Responsibility
 Construction Planning (F2011-
 FD1000-0078). Objective: Determine
 whether AFCENT Civil Engineers
 coordinate MILCON projects with the
 proper command at joint bases to
 facilitate the Base Master Plan.
                                                                               AFGHANISTAN,
 Specifically, determine whether Air
                                                                               QATAR, UNITED
 Force personnel (a) identified the        AFAA              Oct-10   Mar-11
                                                                                   ARAB
 proper command, agency, or joint
                                                                                 EMIRATES
 structure to oversee the joing base
 master planning effort, (b) identified
 and analyzed barriers to proper and
 adequate master planning, and (c)
 recommend the optimal alignment of
 responsibility and authority for the
 joint base operating support integrator
 (BOS-I) command structure. (MC)
(MC) = project impacts Multiple Countries




All Other Countries
                                                  96
All Other Countries



 PROJECT                                   AGENCY    START    FINAL      COUNTRY
 United States Air Forces Central
 (AFCENT) AOR Utilities (F2011-
 FD1000-0077). Objective: Determine
 whether AFCENT Civil Engineers                                        AFGHANISTAN,
 effectively and efficiently manage                                       KUWAIT,
 utilities at AFCENT AOR locations.         AFAA     Nov-10   Jan-12   QATAR, UNITED
 Specifically, determine if civil                                          ARAB
 engineers provide adequate, safe, and                                   EMIRATES
 cost-effective utility service. [TDY
 footprint in AOR Jun-Aug 2011]
 (MC)
 (MC) = project impacts Multiple Countries


 Physical Security & Personnel Security
 ONGOING
 PROJECT                                    AGENCY   START    FINAL      COUNTRY
 U. S. Air Forces Central (AFCENT)
 Deployed Locations Computer
 Network Controls (F2010-FB4000-
 0614). Objective: Determine whether
 AFCENT personnel effectively
                                                                       AFGHANISTAN,
 controlled access to the networks in the
                                                                       IRAQ, KUWAIT,
 AFCENT Area of Responsibility.
                                                                       KYRGYZSTAN,
 Specifically, determine whether             AFAA    Jul-10   May-11
                                                                       QATAR, UNITED
 AFCENT personnel properly (a)
                                                                           ARAB
 identify contractors and foreign
                                                                         EMIRATES
 nationals with access to AFCENT
 networks, (b) authorize network access
 for contractors and foreign nationals,
 and (c) establish network user accounts
 for contractors and foreign nationals.




All Other Countries
                                             97
All Other Countries



 Training & Equipping National Security Forces
 ONGOING
 PROJECT                                 AGENCY    START    FINAL     COUNTRY
 Regional Review of the Bureau of
 Diplomatic Security (DS) Anti-
 Terrorism Assistance (ATA)
 Training Program Purpose: To
 provide an overall review and
 summary of the requirements,
 provisions, and costs of the Bureau
 of Diplomatic Security (DS) Anti-
 Terrorism Awareness (ATA)
 Training Program; goals and
                                         DoS OIG   Feb-11              OTHER
 objectives of the program, what
 indicators have been established to
 measure performance; and how DS
 administers the program to ensure
 performance and costs of the
 program are meet. Assess the status
 of program records, management
 controls, costs, and value of this
 program to the mission of the
 Department of State.
 Review of the Bureau of
 International Narcotics and Law
 Enforcement Affairs (INL)
 Training Programs of the
 Palestinian Authority (PA)
 Security Forces. (Performance
 Evaluation). Purpose: The primary
 purpose is to determine whether INL
 is effectively managing and
 overseeing the contracts, grants and
                                                                     PALESTINIAN
 bi-lateral agreements implementing      DoS OIG   Jun-10   Mar-11
                                                                     TERRITORIES
 training of the Palestinian Authority
 National Security Forces and
 Presidential Guard in Jordan and the
 West Bank. This review will assess
 the effectiveness of the training
 programs, its compliance to INL’s
 mandate to provide law enforcement
 training and the Palestinian
 Authority’s ability to sustain the
 program.



All Other Countries
                                            98
All Other Countries




 Warfare Support
 ONGOING
 PROJECT                                                AGENCY   START FINAL COUNTRY
 Improvised Explosive Device Defeat
 (IED-D) Home Station Training (A-2010-
 FFF-0372.000). Objectives: Determine
 whether (1) home station training is
 effectively providing Soldiers proficiency in
                                                         AAA     Mar-10   Jun-11   CONUS
 IED-D tasks in a counter insurgency
 environment and (2) home station training
 facilities including training aids, devices and
 simulators are sufficient to conduct effective
 IED-D individual and unit training.
 Follow-up Audit of Automatic Reset
 Induction (A-2010-ALM-0394.000).
 Objective: Evaluate whether the Army fully
 implemented recommendations addressed in
                                                         AAA     Apr-10   Apr-11   CONUS
 the two quick reaction reports (A-2009-
 0071-ALM and A-2009-0077-ALM) and
 whether those recommendations corrected
 the reported problems.
 Reporting of Marine Corps Personnel
 Mishaps (N2010-NIA000-0039.002).
 Objective: To verify that the Marine Corps'
 safety mishap reporting processes provide
 complete, accurate, and readily accessible        NAVAUDSVC     Nov-09   Jan-11   GLOBAL
 data for use in analyzing trends and decision
 making within I MEF and II MEF and
 selected installations within Marine Corps
 Bases, Atlantic and Pacific.


 Accountability and Maintenance of Equipment
 PLANNED
 PROJECT                                                AGENCY   START    FINAL    COUNTRY
 Property Accountability in CONUS (A-
 2011-ALL-0346.000). Objective:
 Determine if command has sufficient
                                                         AAA     Mar-11   Dec-11    CONUS
 policies, processes, and procedures to
 account for sensitive item shipments from
 CONUS to Afghanistan.




All Other Countries
                                                   99
All Other Countries



 PROJECT                                        AGENCY      START FINAL       COUNTRY
 United States Air Forces Central
 (AFCENT) Storage Container
 Management (F2011-FD3000-0039).
 Objective: Evaluate whether Air Force                                         OMAN,
 personnel effectively manage AOR storage                                      QATAR,
 container requirements and adequately               AFAA   Jan-11   Dec-11    UNITED
 account for, control, and maintain                                             ARAB
 containers. Further, determine whether the                                   EMIRATES
 Air Force requires container contents for
 mission operations. [TDY footprint in
 AOR Jun-Aug 2011] (MC)
 Return of Assets from SWA - CONUS
 (A-2011-ALL-0136.000). Objective:
 Determine if management controls over
 assets returned from Southwest Asia were            AAA    Jun-11             OTHER
 sufficient to ensure units only retained
 authorized quantities and properly reported
 excess materiel for redistribution.
(MC) = project impacts Multiple Countries

 Agriculture & Counternarcotics
 PLANNED
 PROJECT                                        AGENCY      START FINAL       COUNTRY
 Audit of USAID/Tajikistan’s Productive
 Agriculture Program Objective: Is
 USAID/Tajikistan’s Productive
 Agriculture Program achieving its main
                                               USAID OIG    Apr-11   Aug-11 TAJIKISTAN
 goal of increasing the productivity of
 traditional agricultural crops and
 expanding the agricultural profitability of
 farmers?




All Other Countries
                                               100
All Other Countries



 Cross Cutting
 PLANNED
 PROJECT                                         AGENCY     START FINAL       COUNTRY
 Human Resource Offices Outside of the
 United States (N2011-NMC000-
 0109.000). To verify that (1) legal and
 regulatory requirements concerning labor
 affairs between the U.S. Forces and the
 respective country are properly executed;
 (2) internal controls are in place to ensure
                                                NAVAUDSVC   Mar-11   Jan-12     TBD
 hiring practices of local nationals
 (“indirect hires”) and resulting personnel
 actions are executed per established
 policies and procedures; and (3) the
 appropriate authority has been granted to
 the individuals responsible for the
 processing of personnel actions.



 Physical Security & Personnel Security
 PLANNED
 PROJECT                                         AGENCY     START FINAL       COUNTRY
 Department of the Navy Transportation
 Protective Service Internal Controls
 (N2011-NMC000-0112.000). To verify
 that the effectiveness of Department of
                                                NAVAUDSVC   Apr-11   Feb-12    OTHER
 Navy (DON) internal controls for
 movement of sensitive and classified
 material under a transportation protective
 service.
 DON Reporting and Tracking of Sexual
 Assault (N2011-NFO000-0050.000). To
 verify that DON is effectively obtaining,      NAVAUDSVC   Aug-11             OTHER
 analyzing & using sexual assault data to
 prevent sexual assaults in the Navy.
 Foreign National Employees' System
 Access (N2011-NFA000-0082.000). To
 verify that Foreign Nationals have the         NAVAUDSVC   Apr-11              TBD
 proper background investigation prior to
 being given access to DON information.




All Other Countries
                                                101
All Other Countries



 Services
 PLANNED
 PROJECT                                     AGENCY    START FINAL   COUNTRY
 Contract Administration of the Prime
 Vendor Program for Subsistence in
 Support of Operation Enduring
 Freedom. Objective: Evaluate the prime
                                                                     BAHRAIN,
 vendor’s program for subsistence in
                                                                      QATAR,
 support of operation enduring freedom.
                                              DoD IG   Oct-10         UNITED
 Specifically, to review whether the
                                                                       ARAB
 assignment of contracting officer
                                                                     EMIRATES
 representatives and execution of the
 quality assurance surveillance plan and
 procedures were effective for assessing
 contractor performance. (MC)
(MC) = project impacts Multiple Countries




All Other Countries
                                            102
Breakout – Functional Areas



APPENDIX A. BREAKOUT OF FY 2011 ONGOING AND PLANNED
            OVERSIGHT WITHIN FUNCTIONAL AREAS
FUNCTIONAL AREA (Subcategories)                             ONGOING PLANNED
Security
    Accountability and Maintenance of Equipment               19      10
    Physical Security and Personnel Security                   4       6
    Training and Equipping National Security Forces           11      10
    Warfare Support                                           23       5
Governance, Rule of Law and Human Rights
    Anticorruption                                             3       1
    Government Capacity Building                               6       8
    Human Rights                                               1       2
    Refugee Assistance                                         1       0
Economic and Social Development
    Agriculture and Counternarcotics                           2       4
    Education and Healthcare                                  11       5
    Infrastructure                                             6       8
    Reconstruction                                             4       5
Contracting Oversight and Performance
    Contract Management                                       36      18
    Equipment and Property                                     3       6
    Funds Control                                             16      12
    Services                                                   3       5
Crosscutting and Other
    Crosscutting                                               14      3
    Other                                                       4      4
Federal Oversight Efforts contained in the FY 2011 COPSWA     167     112




Breakout – Functional Areas
                                           103
DCAA Contract Audits and USAID OIG Planned Financial Audits


APPENDIX B. DCAA Contract Audits and USAID OIG Planned
Financial Audits

Contract Audits
DCAA
DCAA’s services include professional advice to acquisition officials on accounting and financial
matters to assist them in the negotiation, award, administration, and settlement of contracts.


REQUESTED AUDITS
Many of DCAA’s audits are performed at the request of contracting officers and are most
commonly performed during the negotiation and award phase. DCAA has no control over the
number or timing of these audits and must immediately respond to the audit requests as its top
priority. DCAA issued 213 of these reports between October 1, 2009, and September 30, 2010,
and anticipates issuing a similar number of reports in FY 2011. The major categories of audit
services are described below.

      Price Proposals – Audits of price proposals submitted by contractors in connection with
       the award, modification, or re-pricing of Government contracts or subcontracts.
      Pre-award Accounting Surveys – Pre-award audits to determine whether a contractor’s
       accounting system is acceptable for segregating and accumulating costs under
       Government contracts.
      Other Special Requested Audits – Audit assistance provided in response to special
       requests from the contracting community based on identified risks.


CONTRACT REQUIRED AUDITS
DCAA’s audits of cost-reimbursable contracts represent a continuous effort from evaluation of
proposed prices to final closeout and payment. DCAA is able to plan the extent and timing of
most of the audits performed after the initial contract award. Audits of contractor business
system internal controls and preliminary testing of contract costs are carried out to provide a
basis for provisional approval of contractor interim payments and early detection of deficiencies.
Comprehensive contract cost audits are performed annually throughout the life of the contract
and are used by the contracting activity to adjust provisionally approved interim payments and
ultimately to negotiate final payment to the contractor. DCAA issued 253 of these reports
between October 1, 2009, and September 30, 2010, and anticipates issuing a similar number of
reports in FY 2011 in the following categories.




DCAA Contract Audits and
                                                 104
USAID OIG Planned Financial Audits
DCAA Contract Audits and USAID OIG Planned Financial Audits



                    DESCRIPTION OF AUDIT AREA
                    Incurred Cost (1)                                 48
                    Labor Timekeeping (2)                             59
                    Internal Controls (3)                             40
                    Purchase Existence and Consumption (4)            17
                    Cost Accounting Standards (5)                     52
                    Other (6)                                         37
                    Total                                            253



(1) Incurred Cost – Audits of costs charged to Government contracts to determine whether they
    are allowable, allocable, and reasonable.
(2) Labor Timekeeping – Audits to determine if the contractor consistently complies with
    established timekeeping system policies and procedures for recording labor costs.
(3) Internal Controls – Audits of contractor internal control systems relating to the accounting
    and billing of costs under Government contracts.
(4) Purchase Existence and Consumption – The physical observation of purchased materials
    and services and related inquiries regarding their documentation and verification of contract
    charges.
(5) Cost Accounting Standards – Audits of Contractor Disclosure Statements and compliance
    with Cost Accounting Standards.
(6) Other – Significant types of other audit activities include compliance with the Truth in
    Negotiations Act, and audits of economy and efficiency of contractor operations.




DCAA Contract Audits and
                                                105
USAID OIG Planned Financial Audits
DCAA Contract Audits and USAID OIG Planned Financial Audits




Planned Financial Audits 

USAID OIG

USAID OIG Input Concerning Planned Financial Audits in FY 2011 for Iraq, Pakistan, and the
Rest of Asia


Planned Financial Audits – Iraq

In addition to performance audits, the OIG Country Office in Iraq will also conduct financial
audits. Financial audit objectives include determining whether (1) costs incurred and billed by
the recipient are allowable, allocable, and reasonable; (2) the recipient’s internal control structure
is adequate; and (3) the recipient complies with agreement terms and applicable laws and
regulations. Audits are performed by the Defense Contract Audit Agency at the request of OIG,
who then reviews and issues the reports to USAID with applicable recommendations.


Planned Financial Audits – Pakistan

In addition to performance audits, the OIG Country Office in Pakistan will also conduct financial
audits. Financial audit objectives include determining whether (1) costs incurred and billed by
the recipient are allowable, allocable, and reasonable; (2) the recipient’s internal control structure
is adequate; and (3) the recipient complies with agreement terms and applicable laws and
regulations. The Defense Contract Audit Agency or non-Federal auditors perform these audits.
The OIG reviews and issues the reports to USAID with applicable recommendations.


Planned Financial Audits – Rest of Asia

In addition to performance audits, the Regional Inspector General’s office in Manila will also
conduct financial audits. Financial audit objectives include determining whether (1) costs
incurred and billed by the recipient are allowable, allocable, and reasonable; (2) the recipient’s
internal control structure is adequate; and (3) the recipient complies with agreement terms and
applicable laws and regulations. Financial audits are conducted primarily of non-U.S. based
organizations throughout the rest of Asia by non-Federal auditors. Financial audit reports
conducted by non-Federal auditors are reviewed by the OIG office in Manila, Philippines, and
the reports transmitted with applicable recommendations to the responsible USAID mission in
the region.




DCAA Contract Audits and
                                                  106
USAID OIG Planned Financial Audits
Section 852 Projects


APPENDIX C. SECTION 852 PROJECTS
The FY2009 National Defense Authorization Act (P.L. 110-417) section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for Operations in Iraq and
Afghanistan,” and therefore are not included in the overall count of projects but are identified below.

 PROJECT                                        AGENCY           START FINAL               COUNTRY
 Maintenance and Support of the
 Mine Resistant Ambush Protected
 Vehicle (D2009-D000CK-0100.000).
 Objective: Determine whether Mine
 Resistant Ambush Protected vehicle
 program and contracting officials are
 adequately supporting Resistant
 Ambush Protected vehicle
 maintenance requirements and
 appropriately awarding and
 administering maintenance contracts.
 A series of reports is planned for this          DoD IG          Dec-08     Apr-11           IRAQ
 project. Report No. D-2010-068
 addresses government oversight of
 field service representative and
 instructor services in support of the
 MRAP program. Report D-2010-068
 addresses government oversight of
 field service representative and
 instructor services in support of the
 MRAP program. Report D-2011-036
 addresses competition for instructor
 services for the MRAP.




Section 852 Projects
                                                  107
Section 852 Projects



 PROJECT                                  AGENCY   START FINAL      COUNTRY
 Army and Navy Small Boats
 Maintenance Contracts (D2009-
 D000AS-0163.000). Objective:
 Determine whether contracts
 providing ship repair and maintenance
 to the U.S. Army operations in
 Bahrain and Navy operations in
 Bahrain, Qatar, and United Arab
 Emirates were properly managed and                                 BAHRAIN,
 administered. Specifically, review                                  QATAR,
                                           DoD IG  Mar-09 Feb-11
 competition, contract type, and                                   UNITED ARAB
 contract oversight. Report D-2010-005                              EMIRATES
 addresses an information security
 issue. Subsequent reports will address
 the audit objective. Report D-2010-
 064 addresses competition, price
 reasonableness determinations, and
 quality assurance controls in contracts
 for Army vessels maintenance in
 Kuwait.
 Maintenance of U.S. Navy Aegis-
 Equipped Ships (N2009-NIA000-
 0116.000). Objective: To verify that
 the Navy's maintenance program for
                                         NAVAUDSVC Oct-09 Nov-10     GLOBAL
 U.S. Navy Aegis-equipped ships is
 effectively designed and implemented
 and has sufficient oversight to achieve
 the desired results.
 Material Unit Prices Charged to
 Corpus Christi Army Depot by
 Boeing Company in Fiscal Year
 2008 (D2010-D000CH-0077.000).
 Objective: Determine whether the unit
 prices paid for material acquired         DoD IG  Nov-09 Apr-11     CONUS
 through partnership agreements in
 Fiscal Year 2008 between Corpus
 Christi Army Depot and the Boeing
 Company were fair and reasonable and
 in accordance with the contract.




Section 852 Projects
                                      108
Section 852 Projects



 PROJECT                                    AGENCY   START FINAL     COUNTRY
 Material Unit Prices Charged to
 Corpus Christi Army Depot by
 Sikorski International in Fiscal
 Year 2008 (D2010-D000CH-
 0077.0001). Objective: Determine
 whether the unit prices paid for            DoD IG  Nov-09 Sep-11    CONUS
 material acquired through partnership
 agreements in Fiscal Year 2008
 between Corpus Christi Army Depot
 and Sikorski were fair and reasonable
 and in accordance with the contract.
 USMC Equipment Accountability at
 1st Marine Expeditionary Brigade (I
 MEF) (N2010-NIA000-0038.002)
 Objective: To verify that USMC
 equipment efficiently and effectively     NAVAUDSVC Jan-10 Jan-11    OTHER
 managed, and to ensure that units in
 the field are accurately accounting for
 the equipment they have been
 assigned.
 USMC Equipment Accountability at
 2nd Marine Expeditionary Brigade
 (II MEF) (N2010-NIA000-0038.001)
 Objective: To verify that USMC
 equipment efficiently and effectively     NAVAUDSVC Jan-10 Feb-11    OTHER
 managed, and to ensure that units in
 the field are accurately accounting for
 the equipment they have been
 assigned.
 United States Marine Corps
 Equipment Accountability (N2010-
 NIA000-0038.000). Objective: To
 verify that USMC equipment
                                           NAVAUDSVC Jan-10 Mar-11    OTHER
 efficiently and effectively managed,
 and to ensure that units in the field are
 accurately accounting for the
 equipment they have been assigned.




Section 852 Projects
                                       109
Section 852 Projects



 PROJECT                                  AGENCY   START FINAL      COUNTRY
 Quality Assurance Over
 Maintenance Contracts (F2010-
 FC2000-0021). Objective: Determine
 whether Air Force officials established
 adequate controls for managing
 selected maintenance contracts.                                  AFGHANISTAN,
                                           AFAA     Jan-10 Feb-11
 Specifically, determine if Air Force                                  IRAQ
 personnel (a) effectively monitored
 contract performance, (b) properly
 documented maintenance actions, and
 (c) accurately tracked aircraft flying
 hours.
 United States Marine Corps Small
 Arms Accountability (N2010-
 NMC000-0044.000). Objective: To
 verify that the USMC's small arms       NAVAUDSVC Feb-10 Apr-11      OTHER
 program has adequate controls to
 ensure that small arms are accounted
 for and secured
 Equipment Maintenance Contracts
 Awarded by LOGCOM Albany for
 Selected USMC Equipment (N2009-
 NAA000-0145.000). Objective: To
 verify that contracting process and
                                         NAVAUDSVC Mar-10 Apr-11     GLOBAL
 contract administration procedures for
 spare parts contracts awarded by
 MARCORLOGCOM Albany are
 effectively implemented to protect the
 United States Marine Corps' interest.




Section 852 Projects
                                    110
Section 852 Projects



 PROJECT                                   AGENCY     START FINAL       COUNTRY
 Contractor Logistics Support
 Contract for Stryker Vehicles with
 General Dynamics Land Systems
 (D2011-D000CH-0032.000). The
 DoD OIG is renouncing the Audit of
 Material Purchases Made Through
 Partnership Agreements at Anniston
 Army Depot (D2010-D000CE-
 0190.000) to focus the audit on the
 contractor logistics support contract
                                            DoD IG    Oct-10             CONUS
 for Stryker vehicles. Objective:
 Evaluate the effectiveness of the
 contractor logistics support
 sustainment strategy for Stryker
 vehicles. Specifically, we will review
 contract funding procedures, contract
 type, performance metrics, contractor
 billings, and controls over
 Government Property that is being
 managed by the contractor.
 Equipment Maintenance Contracts
 Awarded by LOGCOM Barstow for
 Selected USMC Equipment (N2010-
 NAA000-0103.000). Objective: to
 verify that contracting process and
 contract administration procedures for   NAVAUDSVC   Oct-10   Jul-11    OTHER
 depot maintenance and spare parts
 contracts awarded by
 MARCORLOGCOM Barstow are
 effectively implemented to protect the
 United States Marine Corps' interest.
 Aviation Contract Maintenance
 (N2011-NIA000-0037.000). To verify
 that aviation contract maintenance is
                                          NAVAUDSVC   Jan-11             OTHER
 effectively performed in accordance
 with the requirements of the Naval
 Aviation Maintenance Program.




Section 852 Projects
                                            111
Section 852 Projects



 PROJECT                                   AGENCY   START FINAL     COUNTRY
 Material Purchases Made Through
 Partnership Agreements for Depot
 Maintenance The DoD OIG plans a
 series of reviews on this subject during
 FY 2011. Objective: Evaluate
 material purchases made at depots
 through partnership agreements with        DoD IG  Apr-11 Sep-11    CONUS
 private-sector firms. Further, we will
 determine whether the partnership
 agreements in place with Original
 Equipment Manufacturers are
 effective in minimizing the cost of
 direct materials to the depot.
 Overhaul and Maintenance of
 Selected Military Equipment at
 LOGCOM Albany (N2011-
 NAA000-0089.000). Objective: To
 verify whether policies and procedures
 of the DON's in-house overhaul and
 maintenance of military equipment at
 LOGCOM Albany are effectively
 implemented to protect the Navy's
                                          NAVAUDSVC Apr-11           CONUS
 interests and to evaluate the controls
 for billing customers and collecting
 revenue for Working Capital Fund at
 LOGCOM Albany. Specifically, we
 will identify the relevant processes and
 evaluate the control program for
 billing customers and collecting the
 resulting revenue at selected USMC
 depots.




Section 852 Projects
                                      112
Section 852 Projects



 PROJECT                                   AGENCY   START FINAL   COUNTRY
 Overhaul and Maintenance of
 Selected Military Equipment at
 LOGCOM Barstow (N2011-
 NAA000-0097.000). To verify
 whether policies and procedures of the
 DON's in-house overhaul and
 maintenance of military equipment at
 LOGCOM Barstow are effectively
 implemented to protect the Navy's
                                          NAVAUDSVC Apr-11         CONUS
 interests and to evaluate the controls
 for billing customers and collecting
 revenue for Working Capital Fund at
 LOGCOM Barstow. Specifically, we
 will identify the relevant processes and
 evaluate the control program for
 billing customers and collecting the
 resulting revenue at selected USMC
 depots.
 Peacetime Engine Requirements
 (F2011-FC2000-0020). Objective:
 Assess whether Air Force personnel
 effectively manage peace time engine
 requirements. Specifically, determine      AFAA     Jul-11        CONUS
 if personnel properly identify and
 budget peace time engine overhaul and
 sparing requirements. [No TDY
 footprint in AOR]




Section 852 Projects
                                     113
Scope and Methodology


APPENDIX D. SCOPE AND METHODOLOGY
The Department of Defense Office of the Special Deputy Inspector General for Southwest Asia
prepared this plan. We compiled information on the planned and ongoing oversight efforts
related to Southwest Asia and surrounding area projects from the following agencies:

      Army Audit Agency
      Air Force Audit Agency
      Naval Audit Service
      Office of the Inspectors General of Departments of Defense and State
      United States Agency for International Development
      Offices of the Special Inspectors General of Iraq and Afghanistan Reconstruction;
      Government Accountability Office
      Defense Contract Audit Agency

This non-audit service report identifies 279 Southwest Asia related products ongoing (167) and
planned (112) for FY 2011.

The information for the plan was obtained directly from the contributing organizations. All
decisions regarding the selection of projects, status of projects, report timelines, and
categorization of reports were made by the contributing organizations. The staff of the Special
Deputy Inspector General for Southwest Asia (SDIG-SWA) compiled the report and reviewed
for potential duplicative planned projects. If a potential duplicative work was identified, the staff
(or the SDIG-SWA) asked each organization to explain why there was no potential duplication.
As a result of these discussions, sometimes, the proposing organizations made decisions to either
remove one of the planned efforts or to clarify objectives.

After we developed the draft COPSWA, we asked each organization to validate the plan and
make adjustments or updates to the draft plan, if necessary. Each organization also reviewed the
draft to eliminate duplication.

To articulate the commonalities of the oversight community SWA efforts, the Southwest Asia
Joint Planning Group used the following functional areas and subcategories:

Security
Accountability & Maintenance of Equipment – Addresses Government-owned equipment and
property used in support of a DoD or other U.S. government activity. This category does not
address those matters related to contracting acquisition actions or any contracted maintenance,
but does address accountability throughout the complete life cycle. The complete life cycle
includes accounting for proper disposal or transfer of equipment or property to a host
government.

Physical Security & Personnel Security – Addresses the physical security of military and civilian
personnel and their operational bases (permanent, mobile, and temporary). This includes, but is
not limited to, reviews of security clearances and identification cards.


Scope and Methodology
                                                114
Scope and Methodology



Training and Equipping National Security Forces – Addresses the reviews of training and
equipping organizations that are critical for stability in sovereign nations (Iraq, Afghanistan,
Pakistan, others). It also includes advising, assisting, or mentoring activities. National security
forces may include national army/navy/air force/coast guard/other military, the Frontier Corps,
national and local police, and special and border police.

Warfare Support – Addresses reviews related to supporting military operations such as planning,
logistics and transportation functions, and the results of those military operations. It also would
include reviews of such programs as the Wounded Warrior care, both outside the continental
United States and upon return to the continental United States, pre- and post-mobilization efforts,
training, etc.

Governance, Rule of Law, and Human Rights
Anticorruption – Addresses reviews of programs and projects focused on prevention of
improper or unlawful conduct intended to secure a benefit for oneself or another. Particular
emphasis is placed on political corruption and bribery.

Government Capacity Building – Addresses programs designed to stabilize communities; foster
economic (including loan programs and state-owned enterprise programs) and agricultural
growth; and build the capacity of the national, local, and provincial governments such as Rule of
Law, oversight, and governance.

Human Rights – Addresses projects focused on the quality of the basic rights and freedoms to
which all humans are entitled. Topics may include, but are not limited to, trafficking in persons
and sexual harassment.

Refugee Assistance – Addresses oversight of programs designed to provide resettlement and
placement, cash and medical assistance, food, employment, and social services to refugees.

Economic and Social Development
Agriculture and Counternarcotics – Addresses reviews related to the management of
counternarcotics programs and sustainable, legal agricultural production for both consumption
and production in the region and the impact of these programs on economic and social
development.

Education and Healthcare – Addresses programs related to education and medical care programs
in the region and the impact of these programs on economic and social development and
advancement.

Infrastructure – Addresses programs related to acquiring or refurbishing resources such as
buildings or infrastructure equipment required for economic and social development and
sustainability in the region. This may include public works, such as water and energy grids, as
well as educating personnel on proper maintenance and future construction requirements.



Scope and Methodology
                                                115
Scope and Methodology


Reconstruction – Addresses programs related to the reconstruction or reestablishment of assets,
in addition to infrastructure, affected by destabilization and the resulting destruction experienced
in the region and the impact of this reconstruction on economic and social development.

Contracting Oversight and Performance
Contract Management: Addresses parts or all of contracting requirements, acquisition strategy,
management, and administration. Reviews of contract administration may include a review of the
contracting officer representative’s assignment, delegation, training, and performance. In
general, the review may include contracting oversight and performance, and may refer to the
post-award management and oversight of contract actions.

Equipment and Property – Reviews address specific or multiple contracts that may acquire, 

manage, construct, or maintain equipment or property used in contingency operations. 


Funds Control – Addresses oversight work that reviews the effectiveness, quality, and efficiency 

of controls of government managers that ensure the proper management and accountability of 

funds disbursed, the proper use of funds, and the proper reporting including accuracy in DoD 

financial reports. 


Services – Addresses oversight of contract actions that generally require a contractor’s time and 

effort to include private security contractors whether for personnel or physical security. These 

reviews would address the type of contracts used to obtain the service, award fee management, 

and other controls over the contractor to ensure service was received as expected, the contract 

was properly written to ensure expectations would be met, and services provided were in the best 

interest of the Government and the taxpayer. 


Crosscutting and Other

We added this category to address reports that did not relate to any of the available categories.


Section 842
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,” Section
842, “Investigation of Waste, Fraud, and Abuse in Wartime Contracts and Contracting Processes
in Iraq and Afghanistan,” January 28, 2008, requires the Inspector General of the Department of
Defense to develop a comprehensive plan for a series of audits of Department of Defense
contracts, subcontracts, and task and delivery orders for the logistical support of coalition forces
in Iraq and Afghanistan. The Act also requires that the Special Inspector Generals for Iraq
Reconstruction and Afghanistan Reconstruction develop a comprehensive plan for a series of
audits of Federal agency contracts, subcontracts, and task and delivery orders for the
performance of security and reconstruction functions in Iraq and Afghanistan.




Scope and Methodology
                                                116
Scope and Methodology


Section 852
The April 2009 update also includes the DoD IG, Army Audit Agency, Naval Audit Service, and
Air Force Audit Agency planned and ongoing oversight efforts related to Public Law 110-417,
“The National Defense Authorization Act for Fiscal Year 2009,” Sec. 852, “Comprehensive
Audit of Spare Parts, Purchases, and Depot Overhaul and Maintenance of Equipment For
Operations in Iraq and Afghanistan,” October 14, 2008:

           SEC. 852. COMPREHENSIVE AUDIT OF SPARE PARTS PURCHASES AND
           DEPOT OVERHAUL AND MAINTENANCE OF EQUIPMENT FOR
           OPERATIONS IN IRAQ AND AFGHANISTAN.

           (a) AUDITS REQUIRED.-The Army Audit Agency, the Navy Audit Service, and
           the Air Force Audit Agency shall each conduct thorough audits to identify potential
           waste, fraud, and abuse in the performance of the following:

           (1) Department of Defense contracts, subcontracts, and task and delivery orders
           for-
           (A) depot overhaul and maintenance of equipment for the military in Iraq and
           Afghanistan; and
           (B) spare parts for military equipment used in Iraq and Afghanistan; and

           (2) Department of Defense in-house overhaul and maintenance of military
           equipment used in Iraq and Afghanistan.

           (b) COMPREHENSIVE AUDIT PLAN.-
           (1) PLANS.-The Army Audit Agency, the Navy Audit Service, and the Air Force
           Audit Agency shall, in coordination with the Inspector General of the Department
           of Defense, develop a comprehensive plan for a series of audits to discharge the
           requirements of subsection (a).

           (2) INCORPORATION INTO REQUIRED AUDIT PLAN.- The plan developed
           under paragraph (1) shall be submitted to the Inspector General of the Department
           of Defense for incorporation into the audit plan required by section 842(b)(1) of the
           National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181;
           122 Stat. 234; 10 U.S.C. 2302 note).

           (c) INDEPENDENT CONDUCT OF AUDIT FUNCTIONS.-All audit functions
           performed under this section, including audit planning and coordination, shall be
           performed in an independent manner.

           (d) AVAILABILITY OF RESULTS.-All audit reports resulting from audits under
           this section shall be made available to the Commission on Wartime Contracting in
           Iraq and Afghanistan established pursuant to section 841 of the National Defense
           Authorization Act for Fiscal Year 2008 (122 Stat. 230).

           (e) CONSTRUCTION.-Nothing in this section shall be construed to require any
           agency of the Federal Government to duplicate audit work that an agency of the
           Federal Government has already performed.




Scope and Methodology
                                                   117
Scope and Methodology


Commander’s Request
The former Commander, U.S. Central Command proactively engaged the Defense oversight
community by requesting focused oversight on asset accountability in the U.S. Central
Command Area of Responsibility. In December 2008, the then Commander, U.S. Central
Command, requested the DoD Inspector General to lead a planning effort with the Service Audit
Agencies and to prepare a comprehensive approach that ensures U.S.-funded assets are properly
accounted for and that there is a process for the proper transfer, reset, or disposal of these assets
from military units, support staff, and contractors as theater operations evolve.




Scope and Methodology
                                                118
The Department of Defense Office of the Special Deputy Inspector General for Southwest Asia
prepared this plan. If you have questions, contact sdig-swa@dodig.mil.

To request a copy of the plan, contact the Office of Special Deputy Inspector for Southwest Asia
by telephone (703) 604-9165 (DSN 664-9165), by fax (703) 604-8932, or by mail:

               Office of the Special Deputy Inspector General of Southwest Asia 

                                          Room 1000 

                                     400 Army Navy Drive 

                                  Arlington, VA 22202-4704 


The plan is also available on our Web site at http://www.dodig.mil/.
                                     Participating Agencies


Department of Defense                                       U.S. Department of State and 

Office of Inspector General
                                Broadcasting Board of Governors

400 Army Navy Drive
                                        Office of Inspector General

Arlington, VA 22202 
                                       Room 8100, SA-3

                                                            2201 C Street, NW

U.S. Army Audit Agency
                                     Washington, DC 20520-0308

3101 Park Center Drive

Alexandria, VA 22302-1596
                                  United States Agency for International Development

                                                            Office of Inspector General

Air Force Audit Agency
                                     Room 8.09-090, RRB

1126 AF Pentagon 
                                          1300 Pennsylvania Avenue NW

Washington, DC 20330-1126 
                                 Washington, DC 20523


Naval Audit Service
                                        Government Accountability Office

1006 Beatty Place, SE
                                      441 G St., NW

Washington Navy Yard Bldg. 219
                             Washington, DC 20548

Washington, DC 20374 

                                                            Defense Contract Audit Agency

Special Inspector General for Iraq Reconstruction           8725 John J. Kingman Road, Suite 2135

400 Army Navy Drive 
                                       Fort Belvoir, VA 22060-6219 

Arlington, VA 22202-4704


Special Inspector General for Afghanistan Reconstruction

400 Army Navy Drive

Arlington, VA 22202-4704





                                                                                                                     Fiscal Year 2011 Comprehensive Oversight Plan
                               Department of Defense Office of Inspector General

                                                                                                                        for Southwest Asia and Surrounding Areas
                                            400 Army Navy Drive

                                            Arlington, VA 22202


                                This report is available online at: www.dodig.mil

                                                                                                                  Report No. SDIG-SWA-11-01              March 15, 2011
